<html>
<title> - CONFRONTING THE RISE IN ANTI-SEMITIC DOMESTIC TERRORISM, PART II</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
    CONFRONTING THE RISE IN ANTI-SEMITIC DOMESTIC TERRORISM, PART II

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                            INTELLIGENCE AND
                            COUNTERTERRORISM

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 26, 2020

                               __________

                           Serial No. 116-61

                               __________

       Printed for the use of the Committee on Homeland Security
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
       
 
                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                 U.S. GOVERNMENT PUBLISHING OFFICE 
41-451 PDF                 WASHINGTON : 2020                              
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           John Joyce, Pennsylvania
Elissa Slotkin, Michigan             Dan Crenshaw, Texas
Emanuel Cleaver, Missouri            Michael Guest, Mississippi
Al Green, Texas                      Dan Bishop, North Carolina
Yvette D. Clarke, New York           Jefferson Van Drew, New Jersey
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 ------                                

           SUBCOMMITTEE ON INTELLIGENCE AND COUNTERTERRORISM

                      Max Rose, New York, Chairman
Sheila Jackson Lee, Texas            Mark Walker, North Carolina, 
James R. Langevin, Rhode Island          Ranking Member
Elissa Slotkin, Michigan             Peter T. King, New York
Bennie G. Thompson, Mississippi (ex  Mark Green, Tennessee
    officio)                         Mike Rogers, Alabama (ex officio)
             Sandeep Prasanna, Subcommittee Staff Director
           Mandy Bowers, Minority Subcommittee Staff Director
           
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Max Rose, a Representative in Congress From the 
  State of New York, and Chairman, Subcommittee on Intelligence 
  and Counterterrorism:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Mark Walker, a Representative in Congress From the 
  State of North Carolina, and Ranking Member, Subcommittee on 
  Intelligence and Counterterrorism:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................     4

                               Witnesses

Ms. Jill Sanborn, Assistant Director, Counterterrorism Division, 
  Federal Bureau of Investigation:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
Ms. Elizabeth Neumann, Assistant Secretary, Threat Prevention and 
  Security Policy, Office of Strategy, Policy, and Plans, 
  Department of Homeland Security:
  Oral Statement.................................................    10
  Joint Prepared Statement.......................................    12
Mr. Brian Harrell, Assistant Director, Infrastructure Security, 
  Cybersecurity and Infrastructure Security Agency, Department of 
  Homeland Security:
  Oral Statement.................................................    17
  Joint Prepared Statement.......................................    12

                             For the Record

The Honorable Max Rose, a Representative in Congress From the 
  State of New York, and Chairman, Subcommittee on Intelligence 
  and Counterterrorism:
  Letter From the Jewish Federations of America..................    35

                                Appendix

Questions From Chairman Max Rose for Jill Sanborn................    39
Question From Chairman Bennie G. Thompson for Jill Sanborn.......    39
Questions From Honorable Elissa Slotkin for Jill Sanborn.........    39
Questions From Ranking Member Mark Walker for Jill Sanborn.......    40
Questions From Chairman Max Rose for Elizabeth Neumann...........    40
Question From Chairman Bennie G. Thompson for Elizabeth Neumann..    40
Questions From Ranking Member Mark Walker for Elizabeth Neumann..    41


    CONFRONTING THE RISE IN ANTI-SEMITIC DOMESTIC TERRORISM, PART II

                              ----------                              


                      Wednesday, February 26, 2020

             U.S. House of Representatives,
                    Committee on Homeland Security,
                              Subcommittee on Intelligence 
                                      and Counterterrorism,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:03 p.m., in 
room 310, Cannon House Office Building, Hon. Max Rose (Chairman 
of the subcommittee) presiding.
    Present: Representatives Rose, Slotkin, and Walker.
    Also present: Representative Malinowski.
    Mr. Rose. The Subcommittee on Intelligence and 
Counterterrorism will come to order. The subcommittee is 
meeting today to receive testimony on ``Confronting the Rise in 
Anti-Semitic Domestic Terrorism, Part II.''
    Without objection, the Chair is authorized to declare the 
subcommittee in recess at any point.
    Without objection, Members not on the subcommittee shall be 
permitted to sit and question the witnesses.
    I now recognize myself for an opening statement.
    Of course, thank you so much to our extraordinary slate of 
witnesses from the FBI and Department of Homeland Security for 
coming here today to testify on the Federal Government's 
response to the rise in anti-Semitic domestic terrorism.
    I am sure in the process we will also be focusing on 
generally the issue of domestic terrorism. This is not a 
question of either/or, and we are not losing sight of jihadi 
terrorism and the threat that it continues to pose. But there 
is no doubt the statistics do not lie. The rise of domestic 
terrorism and the anti-Semitic threads running through it are 
an incredibly real problem.
    I have got people in my community, people in communities 
throughout this country, that are afraid to go outside wearing 
their kippah, afraid to congregate, afraid to observe the High 
Holy Days, and people generally are now afraid to do things 
that they were not afraid to do just a few years ago.
    We have certainly seen the rise of a global neo-Nazi, White 
nationalist movement that is deserving of our attention. Many 
people, experts, have said that this looks like what al-Qaeda 
looked like in the 1980's and the 1990's. Let's not find 
ourselves asleep at the wheel, as we did in the run-up to 9/11.
    For so many people in my community, it feels like 9/11 was 
yesterday. These organizations, it is my opinion and I am not 
the only one, need to be identified as foreign terrorist 
organizations, and if they are not identified as foreign 
terrorist organizations, you need to tell us that we are still 
protected.
    We need to know that when people in America go to train 
overseas, when people in America are recruited, when people try 
to come to America who have trained with these organizations, 
that you have the same tools at your disposal that you do and 
have had in the fight against jihadi terrorism. That is not too 
much to ask on behalf of the American people.
    So, with that, I will move on to your testimonies. I have 
no more highlighted things.
    [The statement of Chairman Rose follows:]
                     Statement of Chairman Max Rose
                           February 26, 2020
    Anti-Semitic domestic terrorism is an issue that has deeply 
affected my district, my community, and the whole New York City area. 
As we all know, in recent months, anti-Semitic violence has terrorized 
Jewish communities across the country. In the past few months, Jews in 
New York and New Jersey have been subjected to dozens of anti-Semitic 
incidents and attacks.
    We saw the brutal stabbing attack at a rabbi's home in Monsey, New 
York, on December 28, and the mass shooting in Jersey City on December 
10. Just in the past few months, we've seen over 40 anti-Semitic 
incidents in the New York area. And it hasn't stopped. Earlier this 
week, bomb threats were sent to 18 Jewish community centers across New 
York State.
    The simple truth is that we are under assault by extremists, many 
of whom are emboldened to act and often encouraged by content on social 
media platforms. The time for thoughts and prayers has passed--the time 
now is for action. Let me be clear: I will not lose sight or focus on 
this issue which has hit far too close to home.
    Last month, this subcommittee heard from experts on anti-Semitic 
violence and homeland security. Thanks to their expert testimony, we 
heard a description of the problem--the violence gripping the Jewish 
community across the country--and we heard their recommendations for 
Congress and the Executive branch.
    Today, we have representatives from the FBI and DHS to discuss the 
Federal Government's response to the rise in anti-Semitic domestic 
terrorism. I'm glad to see two representatives from DHS who briefed 
this committee earlier this month on the Department's approach to 
targeted violence and terrorism.
    I'm also glad to have FBI at the table. Their work countering all 
forms of terrorism is crucial--and I am looking forward to hearing how 
they are approaching the issue of anti-Semitic domestic terrorism.
    For the past year, Democrats on this committee have led on this 
issue. Last month, the President signed H.R. 2479, a bill led by 
Chairman Thompson that I co-sponsored, which authorizes and funds the 
Nonprofit Security Grant Program to help secure synagogues and other 
houses of worship. I fought for funding for this program to be 
increased to $90 million. It was increased, thanks to strong bipartisan 
support.
    But we also need to consider what measures lawmakers and law 
enforcement can implement to make sure that anti-Semites and racists 
can't carry out acts of violence, and that domestic terrorism is seen 
as the crime that it is. Government officials, at all levels, have a 
duty to protect Jewish individuals, communities, and institutions from 
anti-Semitic violence, and must put forth comprehensive strategies to 
address it. That includes meaningful and respectful outreach and 
partnerships with Jewish community institutions. In doing so, these 
strategies should protect and uplift the civil rights and civil 
liberties of all Americans.
    We cannot forget that Anti-Semitic violence in the United States is 
often linked to transnational networks of terror and hate, including 
global networks of white supremacist extremists in Europe and 
elsewhere. The Government must prioritize understanding and combating 
these networks in order to prevent anti-Semitic and racist violence. 
When these foreign white supremacist groups meet the definition of a 
Foreign Terrorist Organization, they should be designated as such.
    I look forward to hearing testimony from our witnesses today on the 
work that is being done to combat anti-Semitic domestic terrorism. More 
importantly, I want to hear about the work that we still need to do to 
address this rising threat--and how Congress can help. We can all see 
that this problem isn't going away. And I will not lose focus on this 
issue.

    Mr. Rose. So the Chair now recognizes the Ranking Member of 
the subcommittee, the gentleman from North Carolina, Mr. 
Walker, for an opening statement.
    Mr. Walker. Thank you, Mr. Chairman. I appreciate your 
passion in this area and the fine job that you are doing in 
this area. I appreciate you scheduling today's hearing to 
follow up on the Federal efforts to address anti-Semitism and 
domestic terrorism.
    It was just last month we had the opportunity to hear 
directly from faith-based organizations, think tanks, and 
others on the growing threat of anti-Semitic rhetoric and 
violence basically around the world. Witnesses testified about 
growing threats to their communities from a wide variety of 
hateful ideologies and the need for more Federal coordination 
and support.
    I look forward to hearing from our distinguished panel 
about on-going Federal efforts to combat domestic extremism and 
terrorism.
    Earlier this month, FBI Director Wray testified that the 
Bureau had elevated racially-motivated violent extremism to a 
threat level on par, and of what Chairman Rose was talking 
about it, with Islamist terrorism.
    In response, the FBI has established a new Fusion Cell to 
better coordinate the response to domestic terrorism and hate 
crimes, and joint terrorism task forces across the United 
States have been instructed to increase their focus on domestic 
terrorism.
    I want to welcome the new FBI Assistant Director of the 
Counterterrorism Division Jill Sanborn, for, I believe, her 
first appearance before the Homeland Security Committee.
    Similarly, the Department of Homeland Security has taken a 
number of actions to expand efforts to address domestic 
terrorism. In April 2019, I believe, DHS launched the new 
Office of Targeted Violence and Terrorism Prevention, or TVTP, 
to coordinate efforts across the Department and focus on 
building prevention capabilities. This office is also working 
with FEMA to administer the new TVTP grant program.
    DHS also released the first Strategic Framework for 
Countering Terrorism and Targeted Violence, which is a holistic 
review of DHS's counterterrorism capabilities and how they can 
be utilized to address targeted violence and domestic 
extremism.
    I look forward to hearing more about the implementation 
plans today for all of these efforts and how DHS will expand 
the information-sharing and outreach efforts with, very 
important, faith-based communities.
    I applaud the great work that is being done by this 
administration. It is clear that it is taking the increased 
domestic extremism threats seriously. I remain steadfast in my 
commitment to an open and bipartisan discussion about domestic 
terrorism and hateful ideologies in my quest or my search for 
meaningful recommendations for addressing these very real 
threats to our homeland.
    We have and we must continue to work in a bipartisan 
fashion to help provide the necessary tools to our communities 
that address these complex problems.
    I thank the witnesses for appearing here today.
    I yield back the balance of my time, Mr. Chairman.
    [The statement of Ranking Member Walker follows:]
                Statement of Ranking Member Mark Walker
                             Feb. 26, 2020
    I would like to thank Chairman Rose for scheduling today's hearing 
to follow up on Federal efforts to address anti-Semitism and domestic 
terrorism.
    Last month, we had the opportunity to hear directly from faith-
based organizations, think tanks, and others on the growing threat of 
anti-Semitic rhetoric and violence around the world. Witnesses 
testified about growing threats to their communities from a wide 
variety of hateful ideologies and the need for more Federal 
coordination and support.
    I look forward to hearing from our distinguished panel about on-
going Federal efforts to combat domestic extremism and terrorism. 
Earlier this month, FBI Director Wray testified that the Bureau had 
elevated racially-motivated violent extremism to a threat level on par 
with Islamist terrorism. In response, the FBI has established a new 
fusion cell to better coordinate the response to domestic terrorism and 
hate crimes, and Joint Terrorism Task Forces across the United States 
have been instructed to increase their focus on domestic terrorism. I 
want to welcome the new FBI assistant director of the counterterrorism 
division, Jill Sanborn, for her first appearance before the Homeland 
Security Committee.
    Similarly, the Department of Homeland Security has taken a number 
of actions to expand efforts to address domestic terrorism. In April 
2019, DHS launched the new Office of Targeted Violence and Terrorism 
Prevention, or TVTP, to coordinate efforts across the Department and 
focus on building prevention capabilities. This office is also working 
with FEMA to administer the new TVTP grant program. DHS also released 
the first Strategic Framework for Countering Terrorism and Targeted 
Violence, which is a holistic review of DHS counterterrorism 
capabilities and how they can be utilized to address targeted violence 
and domestic extremism. I look forward to hearing more about the 
implementation plans for all of these efforts and how DHS will expand 
information sharing and outreach efforts with the faith-based 
community.
    I applaud the great work that is being done by this 
administration--it is clear that it is taking the increased domestic 
extremism threats seriously. I remain steadfast in my commitment to an 
open, bipartisan discussion about domestic terrorism and hateful 
ideologies, and my search for meaningful recommendations for addressing 
these very real threats to our homeland. We have and we must continue 
to work in a bipartisan fashion to help provide the necessary tools to 
our communities that address these complex problems.
    I thank the witnesses for appearing here today and I yield back the 
balance of my time.

    Mr. Rose. Thank you, Ranking Member, and thank you for your 
extraordinary partnership in dealing with this issue. Other 
Members are reminded that statements may be submitted for the 
record.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                           February 26, 2020
    Today's hearing, the subcommittee's second hearing on the issue of 
anti-Semitic domestic terrorism, presents one more opportunity for all 
Members of Congress to come together and condemn acts of domestic 
terrorism and targeted violence motivated by anti-Semitism.
    This issue continues to be a top priority for this committee. Since 
this Congress began, our oversight efforts have uncovered the dramatic 
and disturbing rise in acts of right-wing domestic terrorism, including 
anti-Semitic violence.
    Sadly, recent acts of anti-Semitic violence in the New York and New 
Jersey areas have highlighted the urgent need to ensure the Federal 
Government is working with its State and local partners to combat anti-
Semitic domestic terrorism. Some of these attacks targeted houses of 
worship and other religious institutions, a trend we have increasingly 
seen Nation-wide.
    That is why I introduced H.R. 2476, the American Nonprofit 
Organizations Against Terrorism Act of 2019, which authorizes the 
Nonprofit Security Grant Program (NSGP) for years to come. The program 
provides grants to nonprofits and faith-based organizations in both 
urban and rural areas to help secure their facilities against a 
potential terrorist attack. While I am pleased that the bill was signed 
into law on January 24, 2020, Congress must continue its work to make 
sure that all precautions are taken to protect communities targeted by 
hate and violence.
    This includes reevaluating the Grant Program's funding levels and 
working with community groups and leaders to establish meaningful 
partnerships to tackle this issue.
    On this issue, I would be remiss not to express my disappointment 
in the Trump administration's continued efforts to make drastic cuts to 
DHS preparedness grant programs. In fact, the President's proposed 
fiscal year 2021 budget requested nearly $700 million in cuts to these 
important grant programs that are necessary to support State, local, 
Tribal, and territorial governments in improving their homeland 
security posture.
    However, I am also encouraged by the DHS's first-ever Strategic 
Framework for Combating Terrorism and Targeted Violence. Earlier this 
month, the committee held a productive briefing to discuss this 
strategy. Two of the witnesses today, Assistant Secretary Neumann and 
Assistant Director Harrell, were among the briefers.
    I look forward to speaking further with the Department 
representatives today to identify issue areas we can work together. 
Hearing-specific goals and time lines from the Department today will be 
integral to ensuring that implementation of the strategy is a priority.
    Moreover, I look forward to hearing from Assistant Director Sanborn 
of the FBI, on how the FBI is working with DHS to combat domestic 
terrorism--especially anti-Semitic domestic terrorism. Additionally, 
Ms. Sanborn, it is my understanding that you are the first woman to 
hold the position of assistant director of the Counterterrorism 
Division at the FBI. I would like to extend my congratulations to you 
on this significant achievement.
    It goes without saying that Congress must continue to advocate for 
policies that protect the Jewish community and all communities impacted 
by acts of domestic terror. I look forward to hearing testimony from 
the witnesses on how we can work together to curb domestic terrorism 
while respecting and protecting the civil rights and civil liberties of 
all Americans.

    Mr. Rose. I now welcome our panel of witnesses.
    Our first witness is Ms. Jill Sanborn, assistant director 
of the counterterrorism division of the FBI.
    Ms. Sanborn, I understand that you are the first woman to 
hold this position, and we congratulate you on this tremendous, 
tremendous achievement.
    Our second witness is Ms. Elizabeth Neumann, assistant 
secretary for threat prevention and security policy in the 
Office of Strategy, Policy, and Plans at DHS.
    Our third and final witness is Mr. Brian Harrell, assistant 
director for infrastructure security at the Cybersecurity and 
Infrastructure Security Agency, or CISA, at DHS.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask each witness to summarize his or her statement 
for 5 minutes, beginning with Assistant Director Sanborn.

STATEMENT OF JILL SANBORN, ASSISTANT DIRECTOR, COUNTERTERRORISM 
           DIVISION, FEDERAL BUREAU OF INVESTIGATION

    Ms. Sanborn. Good afternoon, Mr. Chairman, Ranking Member, 
and Members of the committee. Thank you for the opportunity to 
appear before you today.
    My name is Jill Sanborn. It is always an honor to be on the 
Hill, where I started my public service as a Senate page back 
in 1987.
    As of last week, I am now the assistant director of the 
FBI's counterterrorism division. I spent the last couple years 
as the special agent in charge of the Bureau's Minneapolis 
division, where I had the honor of overseeing FBI operations in 
Minnesota and the Dakotas.
    While I was sad to leave the great folks working the upper 
Midwest, I am equally happy to be here focusing on the 
counterterrorism fight once again.
    As the Members of this committee are well aware, preventing 
acts of terrorism, domestic or international, continues to be 
the FBI's No. 1 priority. The FBI takes very seriously all acts 
of terrorism, from any place, by any actor, against any person.
    Multiple fatal attacks, from a church in Charleston in 
2015, to a synagogue in Poway just last year, underscore the 
continuing threat currently facing faith-based communities in 
the United States.
    The threat itself is diverse. In the last 18 months, Jewish 
communities have been targeted and threatened by violent 
extremists across the terrorism spectrum.
    It is widely known that there are groups that want to do 
harm to Americans, but the greatest threat we face today is the 
one posed by lone actors of any ideology, who are typically 
radicalized on-line and look to attack soft targets with easily 
accessible weapons. The solitary nature of their radicalization 
and mobilization makes them particularly difficult to identify 
and disrupt before they take their opportunity to act.
    More often than not we are seeing that these people are 
motivated and inspired by a mix of ideological, social, 
political, and personal grievances against their targets.
    While identifying the ideology of the person helps us 
understand their motivation, our ability to prevent an attack 
seems to rely heavily on recognizing warning signs or 
indicators that someone is actually mobilizing toward an act of 
terrorism.
    In a recent FBI study of successful attackers, in each case 
at least one person saw a change in the attacker's behavior 
before the attack unfolded.
    Unfortunately, people in the United States are often 
inspired by attacks abroad. Attacks like the one in 
Christchurch, New Zealand, last year could and have incited 
others to conduct a similar attack here in the United States. 
In fact, we have seen some domestic terror subjects reference 
foreign individuals over the course of their own radicalization 
process, as well as attempt to livestream their attacks, 
mirroring what they have seen overseas attackers do.
    The internet transcends borders; so, too, do the ideas that 
are propagated on it. To that end, we have seen some domestic 
terrorism subjects travel overseas, some to conflict zones, for 
combat training.
    It is for these reasons, and many more, that the FBI 
commits significant resources to the fight against terrorism 
both here and abroad. Regardless of where it happens, how it 
happens, or who does it, terrorism is terrorism.
    I would like to thank all of our partners, including the 
Members of this committee, who work with us to keep the 
American people safe. We do not and cannot fight this battle 
alone.
    Our people are collaborating and communicating at a high 
level in joint terrorism task forces across the country, and 
also within the numerous fusion centers throughout the Nation.
    In my career, I have worked with many fusion centers, to 
include some in your districts, and the work we are doing 
together there is simply amazing. In fact, information provided 
by the fusion center in Orange County, California, led us to 
predicate cases that recently resulted in 7 arrests of members 
of The Base across 4 different States.
    Collectively, we are working around the clock to push out 
real-time intelligence to Federal, State, local, Tribal, and 
territorial agencies. This collaboration will continue to be 
vital as we face new trends in the threat.
    Our partnerships include non-law enforcement agencies, from 
tech companies to faith-based organizations like the Anti-
Defamation League. I can tell you from my time in the upper 
Midwest, one of our best partners was, and still is, the Jewish 
Community Relations Council of Minnesota and the Dakotas.
    These relationships are working. In just the first quarter 
of this fiscal year, these types of partnerships have assisted 
JTTFs across the country in disrupting and arresting 38 
terrorism subjects right here in the United States.
    In closing, I want to thank you for your continued support 
of the men and women of the FBI. I am honored to be here with 
you today to discuss the issues facing our communities, and I 
look forward to answering any questions you might have.
    [The prepared statement of Ms. Sanborn follows:]
                   Prepared Statement of Jill Sanborn
                           February 26, 2020
    Good afternoon, Chairman Rose, Ranking Member Walker, and Members 
of the subcommittee. Thank you for the opportunity to appear before you 
today. I welcome the opportunity to discuss the FBI's efforts to combat 
the terrorism threat to the homeland, specifically the increasingly 
lethal threat posed by violent extremism to the Jewish community.
                           threat assessment
    While the threat posed by terrorism has evolved significantly since 
9/11, preventing terrorist attacks from foreign and domestic actors 
remains the FBI's top priority. We face persistent threats to the 
homeland and to U.S. interests abroad from foreign terrorist 
organizations (``FTO''), home-grown violent extremists (``HVE''), and 
domestic violent extremists (``DVE''). The threat posed to the United 
States has expanded from sophisticated, externally-directed plots to 
attacks conducted by radicalized lone actors who mobilize to violence 
based on international and domestic violent ideologies.
    In this vein, the greatest threat we face in the homeland today is 
that posed by lone actors radicalized on-line who look to attack soft 
targets with easily accessible weapons. This threat includes both HVEs 
and DVEs, two distinct sets of individuals who generally radicalize and 
mobilize to violence on their own. Many of these insular violent 
extremists are motivated and inspired by a mix of ideological, socio-
political, and personal grievances against their targets, which 
recently have increasingly included large public gatherings, houses of 
worship, and retail locations. Lone actors, who by definition are not 
likely to conspire with others regarding their plans, are increasingly 
choosing these soft, familiar targets for their attacks, further 
limiting law enforcement opportunities for detection and disruption 
ahead of their action.
    These lone actors have targeted and will likely continue to pose a 
threat to the Jewish community. Multiple recent attacks against the 
Jewish community perpetrated by Racially/Ethnically Motivated Violent 
Extremists highlight the diverse nature of this threat. In just the 
last 18 months, anti-Semitic terrorism has devastated Jewish 
communities from Pueblo to Poway to Pittsburgh to Jersey City. These 
attacks were planned by individuals with a variety of ideological 
motivations that justify violence toward others, to include those who 
advocate for a perceived superiority of the white race, as well as 
individuals with an ideology that believes Western hemisphere-based 
minorities are the true Jewish race and are empowered to eradicate 
those not in their belief system. In fact, the top threat we face from 
DVEs stems from those we identify as Racially/Ethnically Motivated 
Violent Extremists. Racially/Ethnically Motivated Violent Extremists 
were the primary source of all ideologically-motivated lethal incidents 
and violence in 2018 and 2019 and have been considered the most lethal 
of all domestic violent extremists since 2001. We assess the threat 
posed by Racially/Ethnically Motivated Violent Extremists in the 
homeland and will remain persistent going forward.
    Domestic violent extremists pose a steady and evolving threat of 
violence and economic harm to the United States. Trends may shift, but 
the underlying drivers for domestic violent extremism--which includes 
socio-political conditions, racism, and anti-Semitism, just to name a 
few--remain constant. As stated above, the FBI is most concerned about 
lone offender attacks; primarily shootings, as they have served as the 
dominant lethal mode for domestic violent extremist attacks. More 
deaths were caused by domestic violent extremists than international 
terrorists in recent years. In fact, 2019 was the deadliest year for 
domestic violent extremism since the Oklahoma City Bombing in 1995; a 
tragic note on the state of domestic terrorism as we look back and 
remember the victims and their families approaching the 25th 
anniversary of that horrific attack.
    HVEs, who are global jihad-inspired; FTOs; and state sponsors of 
terrorism have also demonstrated and acted upon a desire to target 
Jewish houses of worship and the Jewish community in the United States. 
Groups such as the Islamic State of Iraq and ash-Sham (``ISIS''), the 
Islamic Revolutionary Guard Corps (``IRGC''), and Hizballah have 
established anti-Semitic intent and encouraged their followers to 
target Jewish persons and interests both in the homeland and around the 
world. In April 2016, an individual in southern Florida was arrested by 
the FBI Joint Terrorism Task Force (``JTTF'') based on his plot to 
attack a Florida Jewish Center with an improvised explosive device 
(``IED'') in support of a FTO. In August 2018, two individuals were 
arrested for working on behalf of the Islamic Republic of Iran to 
conduct surveillance of Jewish facilities in the United States. In 
December 2018, a JTTF in Ohio arrested a subject who identified two 
different synagogues in Toledo he wanted to attack in support of ISIS. 
These arrests reflect just a few examples of international terrorism 
actors who have targeted the Jewish community.
    It is important to note again that the FBI is concerned about any 
and all acts of terrorism. Multiple lethal attacks in the last 5 years 
have underscored the threat posed by violent extremist actors to all 
faith-based communities in the United States. From the attack on the 
Emanuel AME Church in Charleston in 2015 to the attack on a Hanukkah 
celebration in Monsey just 2 months ago, our faith-based communities 
have been targeted during services, in their places of worship, which 
have included temples, synagogues, churches, mosques, and private 
homes; and in their grocery stores and community centers. Each attack 
represents unacceptable violence against a group of Americans gathered 
together to exercise their Constitutional right to practice their 
religious beliefs freely. The FBI takes these attacks very seriously, 
and is committed to working with our partners to prevent these acts of 
terrorism.
    The attacks and disrupted plots we saw in 2019 underscore the 
continued threat posed by violent extremists. Such crimes are not 
limited to the United States, however, and with the aid of the 
internet, like-minded violent extremists can reach across borders. 
Violent extremists are increasingly using social media for the 
distribution of propaganda, recruitment, target selection, and 
incitement to violence. Through the internet, violent extremists around 
the world have access to our local communities to target, recruit, and 
radicalize like-minded individuals and on a global scale. Attackers 
both in the United States and overseas, for example, have posted 
manifestos dedicated to their ideology prior to their attacks.
    Last year's attack in Poway not only highlights the enduring threat 
of violence posed by domestic violent extremists, but also demonstrates 
the danger presented by the propagation of these violent acts on the 
internet. The attacker in Poway referenced the mosque attacks in 
Christchurch, New Zealand, and we remain concerned that on-line sharing 
of live-streamed attack footage could amplify viewer reaction to 
attacks and provide ideological and tactical inspiration to other 
violent extremists in the homeland. Less than 2 months after the 
attacks in Christchurch, FBI JTTFs in multiple states disrupted plots 
both to replicate and to retaliate for those attacks in New Zealand. We 
continue to see subjects reference foreign attackers in the course of 
their radicalization process. In recent years we have also increasingly 
seen domestic violent extremists both communicating and traveling to 
meet with like-minded individuals overseas. Some of these individuals 
have traveled to conflict zones for combat training and established 
contacts with foreign military and paramilitary organizations, which 
could increase their capacity for violence here in the homeland.
            fbi and partnership action to combat the threat
    As the threat to harm the United States and U.S. interests evolves, 
we are adapting and confronting these challenges, relying heavily on 
the strength of our Federal, State, local, Tribal, and international 
partnerships. In that vein, it is important to highlight the men and 
women across this country that work to fight terrorism every day. That 
includes the men and women of the FBI, who have dedicated their lives 
to our mission to protect the American people from its enemies and to 
uphold the Constitution of the United States. It also includes the men 
and women across the United States who serve on our Joint Terrorism 
Task Forces and in our fusion centers, who work with the FBI to 
identify, assess, and disrupt terrorism threats in the homeland. These 
force-multipliers in the counterterrorism fight serve as the front line 
in the homeland and bring invaluable experience and familiarity with 
the local community to our investigations. Just in January 2020, JTTFs 
across the 50 States disrupted 22 terrorism subjects by arrest.
    In this vein, I would be remiss if I did not mention the great work 
being done to fight the scourge of hate crimes by my colleagues in our 
Criminal Investigative Division. Through our Domestic Terrorism-Hate 
Crimes Fusion Cell we at the FBI apply the expertise, dedication, and 
resources of both the Counterterrorism and Criminal Investigative 
Divisions to these overlapping threats, working to prevent the threats 
on the horizon and provide justice to the victims of hate crimes. 
Because individual incidents may be investigated as both domestic 
terrorism and as a hate crime, we bring the force of the FBI to bear 
against any event that may fall into these categories, investigating 
crimes through the lenses of both Divisions unless or until one avenue 
is foreclosed or eliminated. This Fusion Cell helps ensure seamless 
information sharing across Divisions and augments investigative 
resources to combat the domestic terrorism threat, ensuring we are not 
solely focusing on the current threat or most recent attack, but also 
looking to the future to prevent the next one.
    In the last year, the FBI investigated countless threats to 
religious institutions. Our most valuable tool in this counterterrorism 
fight exists in our relationships with local communities and the 
public, who are best positioned to notice a change in an individual's 
behavior and alert the FBI to threats that endanger members and 
congregants. In line with this effort, the FBI's partnerships with 
leaders in the faith-based communities are paramount to our success. 
Just a few months ago the FBI held a Roundtable with leaders from the 
faith-based community across the country to discuss the threats posed 
to their members and the importance of vigilance in their places of 
worship. Perhaps more importantly, our Field Offices conduct outreach 
with faith-based leaders in their areas of responsibility to host 
interfaith working groups and training in an effort to ensure 
communities are kept abreast of the current threat picture and are in 
the best position to prevent and mitigate acts of terrorism when they 
arise.
    It is also important to highlight our outreach to social media and 
technology companies. FBI interactions with social media companies 
center on education and capacity building, in line with our goal to 
assist companies in developing or enhancing their terms of service to 
address violent extremist exploitation of their platforms. I want to 
emphasize that no FBI investigation can be opened solely on the basis 
of First Amendment-protected activity. Thus, the FBI does not 
investigate mere hateful rhetoric or association with groups that are 
not engaged in criminal activity, or with movements without any element 
of violence or criminal activity. In order to predicate a domestic 
terrorism investigation of an individual, the FBI must have information 
that there is the potential for a Federal or criminal violation and 
that the individual is threatening or planning violent actions in 
furtherance of an ideology. In this vein, we remain sensitive to First 
Amendment-protected activities during investigative and intelligence 
efforts so as to ensure our investigative actions remain aligned to and 
do not exceed the scope of our authorities and are conducted with the 
appropriate protections in place for privacy and civil liberties.
    In a recent FBI study of HVEs who were successful in conducting 
their attacks, the FBI found that in every instance, at least one 
person saw a change in the attacker's behavior before the individual 
mobilized to violence. This was not surprising given the frequency with 
which the FBI receives terrorism-related tips from the community, law 
enforcement, or other Government agencies. In this vein, increased 
community awareness of concerning behaviors and encouraging reporting 
of those behaviors are critical in our fight against terrorism in the 
homeland. Friends and family are always in the best position to notice 
a change in the behavior of their loved ones. Their willingness to 
reach out to law enforcement and others in the community to get help 
for individuals they are concerned about make them critical to 
protecting others in their communities and neighborhoods. We need the 
public to maintain this awareness, and help us to expand the 
understanding that ``See Something, Say Something'' is not a plea for 
vigilance limited to unattended baggage--it also includes our 
responsibility to speak up when we believe an individual in our midst 
could be radicalizing to violence.
                               conclusion
    The FBI would not be as successful as we are in identifying and 
detecting violent extremists before they act if it were not for our 
close relationships with all of our partners across the country, 
including law enforcement at the Federal, State, local, Tribal, and 
territorial levels, as well as our partners in the faith-based 
communities and the private sector. In conjunction with these partners 
we constantly collect and analyze information concerning the on-going 
threats posed by violent extremists and work to share that information 
with these partners around the country, and with our international 
partners around the world. The American lives saved in communities 
across this country are a testament to their hard work and dedication 
to disrupting terrorism from any place, by any actor.
    Chairman Rose, Ranking Member Walker, and Members of the 
subcommittee, thank you for the opportunity to testify concerning the 
evolving terrorism threat to the homeland. As I hope I will make clear 
to you today, the FBI takes very seriously the threat of terrorism in 
any place, by any actor, against any individual or group. Regardless of 
a case classification or indictment category, we work daily to carry 
out the FBI mission to protect the American people and uphold the 
Constitution of the United States. We are grateful for the support that 
you and this subcommittee have provided to the FBI, and we look forward 
to answering any questions you might have.

    Mr. Rose. Thank you for your testimony.
    I now recognize Assistant Secretary Neumann to summarize 
her statement for 5 minutes.

  STATEMENT OF ELIZABETH NEUMANN, ASSISTANT SECRETARY, THREAT 
PREVENTION AND SECURITY POLICY, OFFICE OF STRATEGY, POLICY, AND 
             PLANS, DEPARTMENT OF HOMELAND SECURITY

    Ms. Neumann. Chairman Rose, Ranking Member Walker, 
Congresswoman Slotkin, and Congressman Malinowski, I have 
appreciated each of your attention, your leadership, to this 
issue, and I appreciate you holding this hearing today.
    Last summer, I toured Auschwitz-Birkenau death camps. To 
prepare I read multiple survivors' memoirs, but really nothing 
can prepare you for the size and the scale of those camps.
    The more harrowing thing I found was that there was a 
methodical approach to annihilating groups of people that were 
deemed ``less than.'' I was struggling with how do people 
devolve into such depravity, how quickly pride, which is that 
part of ourselves that says, ``I am better than,'' which we all 
struggle with, it is the original sin, but how quickly pride 
leads to anger, then hate, and then to violence, if properly 
stoked and unchecked.
    How quickly a small group of empowered people, take just 
the prison guards at one camp, they had to buy into the 
justification, a sick rationale, to bring themselves to kill 
millions of people in a systematic fashion.
    You see, they didn't see fellow men and women. They didn't 
see the children reminding them of their own sons and daughters 
and nieces and nephews. Those coming off sealed cattle car 
trains were ``the other,'' a manifestation of a profound 
breakdown of societal bonds into two camps--us and them.
    While many scholars and philosophers have expanded on this 
idea far better than I can, experiencing Auschwitz left me with 
renewed purpose to root out such division within our country.
    Anti-Semitism and similar ideologies of hatred and the 
violence perpetrated in their name have a chilling effect on 
Americans' ability and willingness to openly exercise their 
Constitution's guaranteed rights. These individuals support 
ideologies that seek to create ``the other'' here in the United 
States, and we cannot let that happen.
    Last June, I had the privilege of testifying before another 
subcommittee, and I made a commitment that DHS would develop a 
strategy to counter the threat of domestic terrorism. In 
September, DHS released that strategy, the Strategic Framework 
for Countering Terrorism and Targeted Violence, which describes 
the threat from domestic terrorism, particularly racially- or 
ethnically-motivated violent extremism as growing, and needing 
to be addressed in the same way we have addressed the foreign 
terrorist challenge.
    It calls for us to update the tools and expertise that have 
protected and strengthened our country the past 17 years from 
foreign terrorists, to address the threat from domestic 
terrorism and targeted violence.
    As testified in one of your earlier panels, increasingly 
this threat is transnational. Thus, we are exploring how to 
leverage our existing CT authorities to combat terrorist travel 
against any foreign threat actor seeking to conduct violence.
    At DHS we work closely with the State Department, who has 
the statutory authority for designating groups as foreign 
terrorist organizations. For any groups that are designated, 
DHS then implements relevant screening and vetting measures.
    While designations of certain overseas groups may help us 
address some of these challenges, the lack of a designation 
does not prevent the Department from applying its authorities 
under the INA to disrupt travel of violent extremists. We have 
several examples of skilled CBP officers preventing foreign 
nationals with ties to neo-Nazi groups overseas from entering 
the country due to being deemed inadmissible under the INA.
    Finally, we are seeing foreign-based groups attempting to 
influence and motivate U.S.-based individuals through a variety 
of extremist ideologies in an effort to sow discord in the 
United States as well as incite violence. It is critical that 
we educate the American public and build resilience to these 
malign influence campaigns.
    We are still early in this process, and it is a process 
which needs to be done carefully to ensure we operate within 
the bounds of existing authorities. But please know that our 
operators are actively working to prevent individuals seeking 
to harm our citizens from entering the country.
    The Strategic Framework also called for DHS to create new 
tools, new capabilities to address the threat of terrorism and 
targeted violence. It redefines what we mean by prevention and 
calls for scaling the prevention mission across the United 
States.
    Prevention efforts, in short, are locally-based solutions, 
centered on accepted threat assessment and management 
approaches. We are assisting law enforcement and communities to 
offer voluntary counsel and help to susceptible individuals 
before they commit a crime or violent act.
    The strategy also highlights that we need to do a better 
job countering the on-line influence of violent extremists, as 
witnesses on previous panels discussed in depth. Thanks to 
funding provided by you in fiscal year 2020, we are already 
beginning to scale the prevention mission this year. That 
effort is under way and described in more detail in our written 
statement for the record. Further, the President's budget for 
fiscal year 2021 requests additional increases for prevention.
    We are headed in the right direction, and I am hopeful that 
these efforts in time will lead to a reduction in violence in 
our communities.
    But let me end with this. While I am passionate about DHS's 
approach to preventing violence, I am also realistic about how 
much Government can do. At its core, hate is a heart problem, 
and Government can only do so much about heart problems. We 
need engaged citizens, communities of faith, and leaders in 
communities, nonprofits, corporations, academia, technology, 
and Government to stand up against this evil.
    In his Nobel Peace Prize acceptance speech in 1986, Eli 
Wiesel, a survivor of Auschwitz-Birkenau's death camps, said: 
We must always take sides. Neutrality helps the oppressor, 
never the victim. Sometimes we must interfere. When human lives 
are endangered, when human dignity is in jeopardy, national 
borders and sensitivities become irrelevant.
    Thank you for holding this hearing, and I look forward to 
your questions.
    [The joint prepared statement of Ms. Neumann and Mr. 
Harrell follows:]
    Joint Prepared Statement of Elizabeth Neumann and Brian Harrell
                           February 26, 2020
                              introduction
    Chairman Rose, Ranking Member Walker, and distinguished Members of 
the subcommittee, thank you for holding today's hearing on domestic 
terrorism and, in particular, the rise in anti-Semitic domestic 
terrorism.
    Terrorists and perpetrators of targeted violence aim to weaken the 
very fabric of our democracy. The Constitution's guaranteed rights and 
privileges, including free exercise of religion, are integral to the 
American way of life. Anti-Semitism and similar ideologies of hatred 
for religious groups, and the violence perpetrated in its name, have a 
chilling effect on Americans' ability and willingness to openly 
exercise their most fundamental rights.
    The U.S. Department of Homeland Security (DHS) is committed to 
preventing and mitigating the impact of all forms of terrorism and 
targeted violence. DHS addresses the threat of domestic terrorism with 
the same gravity and seriousness that it gives to foreign terrorist 
organizations. To be clear, whether its origins are anti-Semitism, 
white supremacism, or something else, domestic terrorism of any form 
cannot and will not be tolerated in the homeland. The Department stands 
committed to working with faith-based organizations (FBO) and other 
stakeholders to enhance our collective ability to prevent, protect 
against, and respond to attacks in our communities.
    Over the past decade, DHS, the Department of Justice, and our 
State, local, Tribal, and territorial (SLTT) law enforcement partners 
have tried a variety of approaches to tackle the problem of targeted 
violence and terrorism originating from within the homeland. We have 
learned that traditional law enforcement tools--such as investigations 
and prosecutions--are critical, but they alone cannot solve the 
problem.
    We need to make it harder to carry out an attack and reduce the 
potential loss of life, as well as prevent individuals from mobilizing 
to violence in the first place. Achieving those objectives is beyond 
the Federal Government's capability and role alone; we need a whole-of-
society approach. DHS's role in this effort is to inform, equip, and 
empower the homeland security enterprise to enhance its capabilities. 
This means building meaningful partnerships and trust among many 
different actors in our local communities, including houses of worship, 
civic organizations, Government agencies, law enforcement, and others, 
and providing resources, training, and other assistance that bolsters 
their ability to protect themselves and prevent these attacks before 
they happen.
                             a new approach
    Since its creation in 2003, DHS has initiated numerous programs and 
activities to provide support to our SLTT and private-sector partners 
across the National Preparedness System. The National Preparedness Goal 
is comprised of 5 Mission Areas: Prevention, Protection, Mitigation, 
Response, and Recovery. Across 4 of these missions, DHS has supported 
our partners in steadily building core capabilities for decades. The 
Federal Emergency Management Agency (FEMA)--as the primary lead for the 
mitigation, response, and recovery missions--has worked to hone the 
doctrine, policy, concept of operations, and training since the 1980's, 
while the Cybersecurity and Infrastructure Security Agency (CISA), 
which leads the protection mission, has been at it for 15 years. DHS is 
now bringing to scale the fifth mission--the prevention mission--to 
ensure that there is both a well-regarded set of baseline capabilities 
and the capacity to help State and local partners build these programs.
    In September of last year, DHS released its Strategic Framework for 
Countering Terrorism and Targeted Violence (referred to here as the 
``Strategic Framework''), which seeks to use all the Department's 
resources to address these threats holistically. It also makes clear 
that the threat landscape is no longer dominated solely by foreign 
terrorist organizations; significant attention and effort are required 
to address domestic terrorism and the mass attacks associated with 
targeted violence.
    The Strategic Framework contains 4 goals to counter terrorism and 
targeted violence:
    1. Goal 1.--Understand the evolving terrorism and targeted violence 
threat environment, and support partners in the homeland security 
enterprise through this specialized knowledge.
    2. Goal 2.--Prevent terrorists and other hostile actors from 
entering the United States and deny them the opportunity to exploit the 
Nation's trade, immigration, and domestic and international travel 
systems.
    3. Goal 3.--Prevent terrorism and targeted violence.
    4. Goal 4.--Enhance U.S. infrastructure protections and community 
preparedness.
    While these goals focus on some very traditional roles for the 
Department--information sharing, border security, and infrastructure 
protection--the Strategic Framework is novel in several respects.
    First, it addresses not only international and domestic terrorism, 
but also targeted violence--explicitly stating for the first time in 
National-level strategy that these threats overlap and intersect, 
necessitating a shared set of solutions.
    Second, the Strategic Framework lays a significant marker for DHS 
to step up its activities in the prevention space. The Department views 
prevention as key to addressing terrorism and targeted violence in the 
United States. Consequently, the Strategic Framework's third goal--
simply titled ``Prevent terrorism and targeted violence''--calls for 
DHS to further the development of societal resistance to radicalization 
and ensure broad awareness of the threat of mobilization to violence. 
It also emphasizes locally-based solutions. DHS will continue to 
support local efforts to develop and sustain prevention frameworks that 
ensure threat assessment and management approaches that assist law 
enforcement and the communities they serve to ``off-ramp'' susceptible 
individuals before they commit a crime or violent act.
    Third, the Strategic Framework highlights the need to counter 
terrorists' and violent extremists' influence on-line. Witnesses on 
previous hearing panels discussed the role of on-line platforms in 
addressing the spread of violent extremist and other hate-filled 
content. The Department will continue to engage with our partners in 
the private sector, including internet service providers and social 
media platforms, both directly and through broader initiatives such as 
the Global Internet Forum for Counterterrorism and the evolving 
framework found in the Christchurch Call to Action. We will also 
continue to support efforts by individual technology companies, non-
governmental organizations, and civic partners through mechanisms like 
the digital forum for terrorism prevention and by supporting digital 
challenges that turn the tools terrorists and others use for malicious 
intent back on them.
   implementing the framework for countering terrorism and targeted 
                                violence
    The Department is working aggressively to meet the goals it has set 
for itself, including working diligently to finalize an implementation 
plan for the Strategic Framework. The implementation plan will outline 
DHS's role in this space, which again is to ensure that our SLTT 
partners have the knowledge, tools, and resources required to address 
all of the missions contained in the Strategic Framework. Nowhere is 
this more critical than the need to bolster the protection and 
prevention missions within the United States to reduce the harms 
associated with terrorism and targeted violence fueled by anti-
Semitism.
Protection
    The Department's protection mission is integral to the Nation's 
counterterrorism efforts. The protection of infrastructure and people 
are therefore a vital component of the Department's Strategic 
Framework.
    CISA is at the forefront of this work and is continuing long-
standing efforts to partner with communities to enhance their safety 
and security. For example, CISA's Hometown Security Initiative provides 
direct, tangible support to harden public gathering locations. 
Leveraging its field personnel and program offices, CISA also shares 
threat information, including prominent and emerging tactics; conducts 
security and vulnerability assessments; and provides a wide range of 
training and exercises. In the last 3 fiscal years, CISA conducted 
1,534 engagements with FBOs, primarily through its Protective Security 
Advisors (PSA). In fiscal year 2019 alone, CISA conducted 800 
engagements with places of worship, progressively increasing its 
outreach annually since fiscal year 2017.
    CISA also provides a suite of resources that helps inform local 
decision making. For example, CISA shares information aimed at reducing 
the impacts of an active-shooter incident. This information focuses on 
suspicious behavioral indicators, potential attack methods, how to 
develop an emergency action plan, actions that may be taken during an 
incident to reduce its impact, and how to quickly and effectively 
recover from an incident. Since 2011, CISA has conducted more than 300 
in-person Active Shooter Preparedness Workshops with 41,000 
participants, nearly 975,000 people successfully completed the on-line 
training course, the publicly-available website has been viewed almost 
4.5 million times, and PSAs conducted more than 5,000 active-shooter 
activities (e.g., briefings, presentations, security walk throughs, and 
emergency planning sessions) directly with facilities. Many of these 
resources have been provided to FBOs. Following the tragic attack at 
the Tree of Life synagogue in Pittsburgh, members of the synagogue 
credited the training coordinated by CISA's PSA with saving lives.
    CISA also maintains an exercise program that provides effective and 
practical mechanisms to identify areas for improvement, implement, and 
evaluate corrective actions, and share best practices through 
discussion- and operations-based exercises. Scenarios are driven by the 
public and private sectors, and often focus on active shooters. As just 
one example, in April 2019, CISA partnered with the Secure Community 
Network to conduct a tabletop exercise with Jewish Community leaders 
from across the United States, law enforcement personnel, and 
interagency officials to work through how the community will share 
information and what actions they would take in the event of a threat.
    Additionally, FEMA manages the Nonprofit Security Grant Program, 
which provides more than $70 million in grants annually to non-profit 
and faith-based institutions to protect infrastructure and houses of 
worship.
Prevention
    The paths of terrorists and other violent actors are not linear. As 
witnesses on previous hearing panels have attested, anti-Semitic 
attacks in the United States demonstrate a variety of ideological 
drivers. As such, there is not a one-size-fits-all solution to these 
attacks on FBOs. However, the factors that drive these individuals to 
violence are almost consistently observed by those who know them best. 
Families, friends, bystanders, and others who are concerned for the 
well-being of these individuals are critical to prevention, as they are 
often the ones who will recognize behavioral changes over time that may 
be indicative of radicalization and mobilization to violence.
    Building local prevention frameworks that these bystanders can 
consult when they have concerns--especially before an individual has 
committed a criminal act--is the lynchpin of our prevention efforts. 
DHS is focused on ensuring that SLTT partners, social services, civil 
society groups, the private sector, and other elements of the local 
homeland security enterprise are aware, informed, and capable of 
creating and maintaining local prevention frameworks. Baseline 
capabilities published by DHS will help States and municipalities 
understand what ingredients are needed in a framework and may help them 
identify existing resources that can be leveraged for prevention of 
terrorism and targeted violence. For instance, a suicide hotline, a 
case management system for school resource officers or existing 
protocols for community engagement on other issues can be a good start 
for a prevention framework and baseline capabilities will determine 
whether and how they fit. When consulted, these local prevention 
frameworks can work with individuals of concern and their support 
network of family and friends to prevent further progression toward 
violence and improve the odds of a more positive outcome for all 
involved.
    The Department is already actively engaged in prevention 
activities. DHS currently provides information products to State and 
local partners that provide the latest understanding of the threat and 
how to prevent it. For 20 years, the United States Secret Service 
National Threat Assessment Center (NTAC) has been conducting research 
and training on the prevention of various forms of targeted violence. 
NTAC has traveled to all 50 States, the District of Columbia, Guam, 
Puerto Rico, and 16 countries providing 1,188 training/briefings to 
approximately 160,000 members of Federal, State, and local law 
enforcement, mental health professionals, teachers and school 
administrators, private industry, and other community stakeholders. 
NTAC's most recent publications included an operational guide for 
preventing targeted school violence, Mass Attacks in Public Spaces--
2018, which was released in July 2019, and the most comprehensive 
behavioral analysis of incidents of targeted violence at K-12 schools 
released in November 2019. Since 2011, NTAC has also provided 100 case 
or program consultations for community partners. The goal of NTAC's 
work is to help standardize the principles of threat assessment so our 
communities are better equipped to identify persons of concern, assess 
their potential for carrying out an act of targeted violence, and 
intervene before an act of violence takes place.
    In recent years, DHS has also worked diligently to identify what 
works best to prevent terrorism and targeted violence. We have 
administered a grant program since 2016 to identify innovative programs 
and promising practices, delivered awareness trainings to audiences 
seeking knowledge of the threat, engendered effective partnerships with 
the whole of society, and assisted practitioners across the country in 
building meaningful and effective prevention programs.
    All of this preparatory work culminated in the April 2019 creation 
of the Office of Targeted Violence and Terrorism Prevention (TVTP), the 
primary entity responsible for driving the prevention mission within 
DHS. From that starting point, we worked with Congress to share the 
Department's vision for prevention. Over the course of many hours of 
briefings across the Hill, we had several productive conversations on 
the best approach to this problem. We also pledged to develop a 
prevention strategy. In September 2019, we delivered on that promise 
with the publication of DHS's Strategic Framework, wherein Goal 3 
outlines the DHS approach to prevention.
    In December 2019, Congress provided funds to implement that mission 
through TVTP. We thank you for that investment. Because of this 
additional funding, DHS is well-positioned to begin achieving the goals 
laid out in the Strategic Framework. For example, with $10 million in 
fiscal year 2020 grant funding dedicated to the creation and expansion 
of local prevention programs, DHS will build on the promising practices 
and lessons learned from DHS's past and on-going activities, with an 
emphasis on projects that will help our partners to build local 
capacity to prevent targeted violence and all forms of terrorism.
    The Department is also expanding its ability to coordinate and 
deliver technical assistance. For example, TVTP's awareness briefing 
team is coordinating, updating, and expanding DHS's training 
offerings--including the Community Awareness Briefing, Community 
Resilience Exercise, and Law Enforcement Awareness Briefing (in 
partnership with the DHS Office for Civil Right and Civil Liberties and 
the Federal Law Enforcement Training Centers)--to meet the needs of our 
State and local partners, as well as the technology sector. A strategic 
engagement team is working with key stakeholders, including houses of 
worship; civic organizations; behavioral practitioners; law enforcement 
and other Government officials; and others, to ensure the proper 
operation of prevention frameworks at the local level. Broader 
engagement seeks to amplify and support local prevention efforts.
    Over the next year, the Department's top priority will be working 
with our State and local partners to issue baseline capabilities and 
build locally-based prevention capabilities. To do that, we will 
leverage both the Targeted Violence and Terrorism Prevention Grant 
Program and a soon-to-be-launched Nation-wide field staff presence to 
provide technical assistance to those partners who have volunteered to 
work with us to develop these capabilities. With fiscal year 2020 
appropriations, DHS's field staff program can now expand over the next 
year to 12 regions across the country with the ability to deliver 
awareness briefings, convene key stakeholders required to collaborate 
on prevention frameworks, and identify existing resources that can 
bolster prevention efforts.
The Homeland Security Advisory Council Subcommittee Report on 
        Preventing Targeted Violence Against Faith-Based Communities
    Recognizing the impact that the threat of targeted violence and 
terrorism has on FBOs, at the suggestion of Chairman Thompson and 
Ranking Member Rogers, then-Acting Secretary McAleenan directed the 
Homeland Security Advisory Council (HSAC) to stand up a subcommittee 
that would focus on how the Department can support FBOs to keep them 
safe, secure, and resilient. The HSAC subcommittee transmitted its 
findings and recommendations on preventing targeted violence against 
FBOs to Acting Secretary Wolf on December 17, 2019. We are grateful for 
the leadership of the subcommittee co-chairs, General John R. Allen, 
USMC (Ret.), and Paul Goldenberg, and for the valuable recommendations 
they provided. DHS leadership acted quickly to assess the Report's 
findings and identify areas where we could take action.
    The encouraging news is that many of the subcommittee's 
recommendations will be addressed in the implementation plan for the 
Strategic Framework, which is now being finalized. The Implementation 
Plan is one of the Department's top priorities.
    The Department continues to explore options to implement several of 
the top-tier recommendations in the Report. We concur with the Report's 
findings on the importance of having a designated lead within DHS who 
is responsible for coordinating security-related information, training, 
and engagement with FBOs. The Department is in the process of 
identifying the appropriate office and resources to support this 
requirement. The Department also concurs with the recommendation to 
establish a standing inter-faith advisory council to support the work 
of this newly-established director for FBOs. Such a council would 
enhance the Department's understanding of FBO security needs, 
streamline and increase our engagement with FBOs, and inform our 
responsiveness to threats of targeted violence. We look forward to 
sharing more details about the new director for FBOs and inter-faith 
advisory council as they are formalized.
    Last, we should note that several of the Report's findings focus on 
enhancing outreach efforts by State and local fusion centers, and on 
increasing awareness, training, and information sharing at the local 
level. In order to best address these recommendations, DHS must employ 
a multi-pronged approach that includes all State, local, Federal, and 
non-Federal partners, including State Homeland Security Advisors and 
State and local law enforcement. This approach should build upon DHS's 
mission to facilitate and enhance information sharing and analysis 
across the DHS intelligence enterprise, and with our SLTT homeland 
security partners. Furthermore, our approach should leverage DHS's 
field-deployed experts, such as the CISA's PSAs, TVTP's Prevention 
Coordinators, and DHS Intelligence and Analysis Field Intelligence 
Officers who engage with communities and provide vetted information, 
security assessments, and links to key resources and training. We look 
forward to engaging with Members of Congress to outline opportunities 
where we believe additional resources could help advance this important 
goal.
                               conclusion
    The Department recognizes there is a lot of work to do, and that 
the threat continues. It is unacceptable that anyone in the United 
States be made to feel afraid because of religion, race, or ethnicity, 
nor should anyone be fearful of attending a house of worship or school, 
or of visiting a public space. We are working expeditiously to ensure 
that DHS is postured to better prevent and protect against all forms of 
targeted violence regardless of the ideological motivation.
    The Department is also seeking to build our prevention and 
protection programs to scale in the coming years. The President's 
fiscal year 2021 budget request reflects this requirement, adding $80 
million to the prevention and protection missions. In addition to 
allowing expansion of hard infrastructure assessments and cybersecurity 
engagements, among others, this budget will permit CISA to expand its 
field forces to significantly improve its ability to meet regional 
stakeholders' service demands, such as vulnerability assessments and 
recommendations for action; guidance and best practices for security 
and resilience; situational awareness products and briefings; active 
shooter and counter-IED products, training and tools; and workshops, 
exercises, and consultancy to affect a comprehensive approach to 
address the threat of targeted violence and terrorism. With the 
additional funds provided in the President's budget, TVTP will enhance 
coordination of the overall prevention approach for the Department and 
expand provision of technical and financial assistance to SLTT partners 
establishing and expanding local prevention frameworks. Specifically, 
the President's budget will expand TVTP's regional coordinator program, 
enhance our efforts to engage with the technology sector to combat 
terrorist use of the internet, and double the size of the Targeted 
Violence and Terrorism Prevention Grant Program.
    Again, thank you for the opportunity to appear before the 
subcommittee to discuss the Department's efforts to combat domestic 
terrorism, in particular, by maturing the prevention and protection 
work of DHS. We look forward to answering your questions.

    Mr. Rose. Thank you for your testimony.
    I now recognize Assistant Director Harrell to summarize his 
statement for 5 minutes.

STATEMENT OF BRIAN HARRELL, ASSISTANT DIRECTOR, INFRASTRUCTURE 
  SECURITY, CYBERSECURITY AND INFRASTRUCTURE SECURITY AGENCY, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Harrell. Chairman Rose, Ranking Member Walker, and 
Members of the subcommittee, thank you very much for having me 
today.
    The cornerstone of America's democracy is a free and open 
society where people can live without fear of harm. Americans 
expect to be safe and secure as they conduct their daily lives. 
Most importantly, there are certain foundational rights within 
the Constitution that must be protected.
    These freedoms, including the right to practice a religion 
of choice, are integral to the American way of life.
    Unfortunately, the persistent pressures from domestic and 
international terrorists and other violent extremist actors aim 
to threaten the fabric of America's democracy.
    Differences in ideology materialize in targeted violent 
attacks, as demonstrated by recent events against faith-based 
communities. Throughout the past few years, we have seen 
significant security incidents involving houses of worship, 
schools, and other soft targets and crowded places.
    We have seen the face of evil, but we have also seen the 
face of courage. Courage has materialized in the response of 
our law enforcement, our community business partners, our 
fellow worshippers, and our faith leaders.
    The Department is committed to mitigating the risk of 
attacks on our homeland, and our mission is critical to the 
Nation's counterterrorism efforts. The protection of our people 
and our infrastructure is a vital component of the Department's 
Strategic Framework.
    Through the resources provided by CISA, DHS continues our 
long-standing efforts with communities to share threat 
information, harden public gathering locations, train law 
enforcement and first responders, and conduct a wide range of 
training and exercises.
    We do not magically get better in a time of crisis. We 
always default to the things that we know, to training, to the 
lessons learned from exercises. These are proven initiatives 
that have enhanced the safety and security of the American 
people. Through the Strategic Framework, DHS is augmenting its 
capabilities to address this increased targeted violence 
against our communities.
    To ensure the safety and security of our worshippers, we 
must be innovative, provide timely and useful resources, and 
increase information sharing. CISA is at the forefront of this 
work. Our Hometown Security Initiative provides direct, 
tangible support to harden public gathering locations. 
Leveraging its field personnel and program offices, CISA shares 
information on the evolving threat, including prominent and 
emerging tactics, we conduct security and threat vulnerability 
assessments, and we offer resources to how to mitigate and 
drive down the risk of violent attacks.
    In the last 3 fiscal years, CISA has conducted 1,534 
engagements with faith-based organizations, primarily through 
its Protective Security Advisor Program. In 2019 alone, CISA 
conducted over 800 engagements with houses of worship, 
progressively increasing our outreach since 2017.
    Just last week, DHS, in partnership with DOJ, HHS, and the 
Department of Education, released to the public the 
SchoolSafety.gov website, further demonstrating the 
Department's commitment to giving the appropriate security 
resources to those that can have an impact.
    CISA's resources help inform local decision making. The 
Agency shares information aimed at reducing the impacts of an 
active-shooter incident. This information focuses on suspicious 
behavioral indicators, potential attack methods, how to develop 
an emergency action plan, actions that may be taken during an 
incident, and how to quickly and effectively recover from an 
incident.
    Since 2011, CISA has conducted more than 300 in-person 
active-shooter workshops throughout this country, teaching over 
41,000 participants. Nearly 975,000 people have successfully 
completed our on-line active-shooter training, and our active-
shooter website on DHS.gov has been seen and viewed over 4.5 
million times. Our PSA has conducted more than 5,000 active-
shooter activities throughout this country, and many of them 
revolve around the faith-based organizations.
    Following the strategic attack at the Tree of Life 
Synagogue in Pittsburgh, members of the synagogue credited the 
training provided by our PSAs with saving lives.
    CISA maintains an exercise program that provides effective 
and practical mechanisms to identify areas for improvement, 
evaluate and implement corrective actions, and share best 
practices through discussion-based and full-scale exercises. 
These scenarios are driven by the public and private sector and 
often focus on active shooter, vehicle ramming, chemical 
security, and bombing prevention.
    In view of the attacks against faith-based communities in 
April 2019, CISA partnered with the Secure Community Network, 
SCN, to conduct a tabletop exercise with the Jewish community 
leaders from across the United States, law enforcement 
personnel, and interagency officials to work through how a 
community will share information and what actions they should 
take during a security event.
    Throughout the history of our Nation, the United States has 
epitomized the truest definition of a great democracy and has 
demonstrated to the world the value of freedom, and this is 
clearly seen in the right to practice a religion of choice.
    However, those freedoms that have made this country a 
shining city upon a hill do not come without a price. As I 
wrote to the faith-based community a little over a year ago, in 
this dynamic threat environment we face the reality that 
differences in ideology can result in attacks even in the most 
holy of places.
    While this unfortunate truth may be a reality, it does not 
have to be inevitable. The threat is not going away, but 
neither is our determination to reduce the probability of a 
successful attack.
    The Department is committed to maintaining a strong 
relationship with the faith-based community to reduce risk 
where we can, mitigate impacts where we must, and always defend 
today to secure tomorrow.
    Thank you, and I welcome your questions.
    Mr. Rose. I thank all the witnesses for their testimony.
    I will remind the subcommittee that we will each have 5 
minutes to question the panel.
    I will now recognize the Ranking Member of the 
subcommittee, the gentleman from North Carolina, Mr. Walker.
    Mr. Walker. Thank you, Mr. Chairman.
    Assistant Secretary Elizabeth Neumann, I would like to 
start with you.
    Anti-Semitism is rising around the world. I think you even 
addressed that a little bit. We need to figure out how to stop 
this hateful trend. I asked our last panel of witnesses that 
are referred to a little earlier in my statement about a month 
ago this question, and I am interested to see your assessment.
    What are you seeing in Europe and elsewhere in terms of 
anti-Semitic rhetoric and violence, and how has this 
contributed to the rise of anti-Semitism here in the United 
States?
    Ms. Neumann. Sir, I will invite also AD Sanborn to join me 
in this because the FBI does a lot more of the intelligence 
investigations than I do in my role. But I can tell you from 
the work that my team does and talking to our partners overseas 
that our European allies are very concerned about what they are 
seeing. There are a number of summits that are planned for next 
month to discuss how to wrestle with the same issues that we 
are wrestling with here.
    It is transnational, it is rising in Europe, and 
increasingly everybody is talking to one another and sharing 
ideas, and how to get around our law enforcement and terrorism 
tools.
    Mr. Walker. I was going to the assistant director.
    Would you mind answering the same question?
    Ms. Sanborn. Just to add to what Ms. Neumann said, the 
Jewish community across the world is definitely vulnerable, not 
just in regard, though, I would highlight, to domestic 
terrorism, but also international terrorism.
    If you remember back--and I think I mentioned this in my 
statement for the record--in 2016, we actually arrested, JTTF 
did, an individual who was planning to attack a Jewish center 
in Florida on behalf of ISIS.
    In 2018, we had two individuals who were surveilling Jewish 
facilities to do attacks potentially on behalf of the Islamic 
Republic of Iran.
    Then later on in December 2018, the JTTF in Ohio arrested 
an individual for identifying two different synagogues that he 
wanted to attack.
    So the vulnerability, obviously, of the Jewish community is 
concerning, and it is across both spectrums of----
    Mr. Walker. Well, let's stay there, let's unpack that a 
little bit then. Anti-Semitic attacks and incidents in New York 
and New Jersey, we have seen them increase, but we have also 
seen that it comes from a wide variety of ideologies. Is that 
fair to say?
    Ms. Sanborn. Totally fair to say. I think----
    Mr. Walker. Well, what do you--let me ask the question 
here. This is what I would like you to address. What do you 
attribute the spread of anti-Semitism from so many of these 
ideological drivers?
    Ms. Sanborn. That is a great question, and I think you 
heard from the earlier panel, in Session I. What is behind each 
individual's ideology and motivation and eventual decision to 
attack is complex, and incredibly complex. We are seeing a 
mixture of ideologies. So peeling back exactly what that is and 
what drove them to that is incredibly difficult.
    I think both Ms. Neumann and I commented in our opening 
statements about the behavior and focusing on the indicators 
and warning signs that somebody might mobilize is where we see 
our most productive, successful effort.
    Mr. Walker. OK. Earlier this month, as I mentioned, FBI 
Director Wray testified that the Bureau has elevated racially-
motivated violent extremism to an equal priority with home-
grown violent extremism and Islamist terrorism.
    Assistant director, have new directives been issued to the 
JTTFs and the FBI field offices? What type of resources are 
dedicated to all these new priorities?
    Ms. Sanborn. Another great question.
    So every year we go through a threat prioritization process 
at headquarters and out in the field, and by the director doing 
that, that sets the stage for how the field should respond to 
that.
    So that definitely is something that every field office 
reacts to. I can tell you in Minnesota, I mimicked exactly what 
you heard the director say. I have a hate crimes DT Fusion Cell 
in Minnesota. I created that to mimic that.
    I think to highlight the resources, I would like to bring 
up a significant arrest that we had today.
    Mr. Walker. Sure.
    Ms. Sanborn. Sort-of mention to you, this is how we respond 
to those things.
    So today we arrested 5 members of the Atomwaffen Division 
across 4 different States. Why I bring that up is I think it is 
important for you to understand every single person in the FBI 
is going to work a threat when we have a threat.
    We had individuals who were involved in an intimidation 
campaign to put personalized messages on journalists and 
members of our Jewish community to intimidate them and 
potentially act out in violence. When that happens, in those 4 
States every single person in these field office is working 
that arrest today. Whether they are a fugitive agent or a 
counterterrorism agent, they are working that arrest today.
    Mr. Walker. Just a quick yes or no as my time expires here. 
Thank you for that information. I can even see your passion 
behind this a little bit. It sparks up a little bit there. Just 
a quick yes-or-no question. Do you feel like the directives 
that are getting are more than just what is on white paper, but 
these are actually being implemented along the way?
    Ms. Sanborn. Yes.
    Mr. Walker. OK.
    Thank you, Mr. Chairman. I yield back.
    Mr. Rose. Thank you, Mr. Ranking Member.
    We will now move on to the esteemed gentleman from New 
Jersey, Mr. Malinowski.
    Mr. Malinowski. Thank you so much, Mr. Chairman. Thank you 
for allowing me to take part in this hearing.
    Ms. Neumann, it has been a pleasure to work with you over 
the last several months. I want to thank you again personally 
for coming to my district and helping us spread the word among 
our faith community about the resources that are available to 
them.
    I want to start with you because, as you know, one success 
that we have had recently is that we have worked together here 
to restore a significant amount of funding that was previously 
cut from a variety of DHS Office of Targeted Violence and 
Terrorism Prevention programs.
    I wanted you to tell us in as concrete and straightforward 
terms as possible what you are now able to do, now that you 
have this new funding, that you were not able to do before, how 
that will help, and what lessons has DHS learned from previous 
iterations of this program to make sure that we are effectively 
honing our efforts on where the threat is coming from right 
now, in accordance with the strategy you all put out.
    Ms. Neumann. Thank you, Congressman. I, too, have enjoyed 
the partnership and everyone on this committee's support for 
our efforts.
    I am going to start with your last question because I think 
it helps frame where we are today, the lessons learned.
    A couple of years ago, as you alluded to, the funding for 
this effort was reduced, in large part because we were going 
through administration transitions, and the work that had been 
initiated was toward the end of an administration and not 
properly codified in a variety of mechanisms, getting things 
into budgets and making sure that there was appropriate policy 
documentation to say what we were trying to achieve, the 
expected outcomes, et cetera.
    One of the things that we looked to do when we were 
studying where does the prevention mission need to go, we first 
started with RAND, our FFRDC, and asked them to go look at the 
problem set because there were criticisms from multiple angles: 
``You are targeting communities,'' to, ``This is pseudo-
science, it doesn't actually work.''
    RAND went out and studied. They came back, they said 
prevention does work, it is underfunded, here is where you need 
more money, and it needs to be locally-based, you need to focus 
your efforts on equipping, empowering, informing the local 
communities, the local government, to be able to conduct 
prevention efforts.
    So that gave us a framing, and from that we started talking 
to you all, and we started articulating a vision for where we 
wanted to go with prevention, acknowledging the mistakes of the 
past few years and looking forward to trying to build a better 
path forward.
    I am very pleased that because of those conversations with 
you, with your staff, that what is represented in this document 
here, Goal 3, that it is all about prevention. It redefines 
what prevention means. As many of you know, post-9/11 
prevention was the imminent threat--stop the bomb from going 
off.
    Now prevention is much farther left of boom, working with 
individuals well before they contemplate an act of violence, 
trying to build resilience into society, and then, as somebody 
is on that pathway to violence, trying to intervene before they 
have crossed that criminal threshold.
    Because of the funding that you have given us, the concrete 
answers, we are able to put 12 field staff in the field this 
year. We are going to be developing baseline capabilities for 
how you do prevention correctly, to make sure we have proper 
protections in place for civil liberties, as well as privacy, 
and as well as having the right handshake with law enforcement, 
with the FBI, so that if somebody does not successfully work 
through an intervention and an off-ramp, that law enforcement 
is called in appropriately to disrupt.
    We are going to be able to engage with more stakeholders, 
especially the technology community. I think this is a space, 
as your earlier panels alluded to, that we need to have more 
conversations and see if we can be doing more to combat 
terrorist use of the internet.
    So that is just a snapshot of what we are currently working 
on, but there is much more to be done.
    Mr. Malinowski. Thank you.
    Very, very quickly, I don't have much time left. Ms. 
Sanborn, you mentioned the arrest of the Atomwaffen Division 
members. What are they being charged with, if it is a campaign 
of intimidation? Because we are thinking about legal 
authorities and whether you have sufficient authorities.
    Ms. Sanborn. Absolutely. I don't have the specific charges 
in front of me. I do remember that some of them involve the 
transmission of threats across interstate lines, wire 
communication, and whatnot, so typical tools we use in our 
toolbox.
    Mr. Malinowski. Right. But we still can't charge someone 
with material support----
    Ms. Sanborn. Correct.
    Mr. Malinowski [continuing]. For the Atomwaffen Division. 
Right, got it.
    Thank you and I yield back.
    Mr. Rose. Thank you.
    We will move on to someone who has spent her entire career 
fighting this fight, Ms. Slotkin, from the great State of 
Michigan.
    Ms. Slotkin. He is just trying to make up for the fact that 
he let Mr. Malinowski go first.
    Thank you for being here.
    The context for my questions is that I am from Michigan, 
and in my district specifically we have seen in the very recent 
past a real uptick in anti-Semitic incidents. We have had our 
Michigan State University Hillel defaced this fall. We had a 
swastika painted in front of a fraternity house in the past 
month. We had a mezuzah pulled off one of our dorm--or one of 
our student's locations.
    Then in one of my counties, across basically an entire 
town, we woke up one morning and had anti-Semitic graffiti in 
front of multiple businesses saying, Jews are responsible for 
9/11.
    So in response to this uptick, not just in my district but 
across the State, we have had synagogues defaced, including in 
Hancock, Michigan, where a man from New Jersey put out a call 
and said, you know, kind-of, you should move against 
synagogues. In Michigan and in Wisconsin, people responded and 
defaced synagogues.
    I held a meeting this past Sunday on anti-Semitism in my 
community, in East Lansing, Michigan. My attorney general was 
there. We spent a lot of time answering questions, concerns, 
from community members on what to do about this.
    So my experience in my life is in countering foreign 
terrorism and the foreign threats. I know that after 9/11, 
especially in the FBI, it took a minute to adjust to these 
different threats. I remember when we turned a lot of support 
staff at the FBI into analysts on terrorism overnight. I 
remember how we weren't resourced because the threat had 
fundamentally changed.
    So if I can just ask, Ms. Sanborn, can you tell me in 
specific terms what you have changed on number of analysts, 
number of dollars, number of agents, number of task force? 
Like, I get that you guys are focused on it and I am thrilled, 
but I know after 15 years in the Government, it is dollars and 
people. Convince me, as Mr. Rose said, that we are taking the 
threat seriously.
    Ms. Sanborn. What I can tell you is the number of resources 
that we throw at that is commensurate with what we are seeing 
with the problem. So, for example, one-fifth of my CT cases are 
either racially or ethnically motivated. So one-fifth of my 
resources are applied to that. So it is commensurate with what 
we are seeing as far as the cases and the threat and the amount 
of resources that we put forth to it.
    I believe that the creation of things like the Hate Crimes 
Fusion Center, the other thing that we have done is we have 
cross-pollinated some of those people that you reflect in your 
career, the long-time, good, international terrorism analysts 
and/or agents are cross-pollinating into the domestic terrorism 
space to sort-of make sure we are passing on best practices and 
lessons learned.
    Interestingly enough, the JTTF, which is one of our best 
tools in our toolbox, was actually created in 1980 in response 
to domestic terrorism in New York with the increase of attacks 
there.
    Ms. Slotkin. So what I would ask, because I think there are 
a lot of folks who might be interested in this, is that you 
take that question for the record, and provide kind-of in 
concrete dollars and bodies what we are talking about. It is 
great that one area is commensurate with the threat, but I 
think a lot of us would be able to speak to our constituents 
with real authority if we said, look, here is what the FBI had 
their resources--here is how they had them allocated in 2016, 
and here is what they are today. A comparative to show us the 
delta would be great.
    If I can just move on to Assistant Secretary Neumann.
    So I guess the question I have is, in your experience, once 
we identify that these networks are out there, that there are 
communities, particularly on-line, that may be mobilizing or 
dealing in conspiracy theories, recruiting, those kinds of 
things, tell me about rehabilitation. Tell me about how you 
deal with this.
    I understand prevention, and obviously that is the goal. 
But just like with foreign terrorists, right, with people who 
have been radicalized, what is the rehab process once we 
identify a community? What can you recommend to people who are 
concerned about the growing spike in anti-Semitic attacks?
    Ms. Neumann. I will start with the honest answer, which is 
I think we are still learning. From your experience overseas, 
you know that there are a number of other governments that have 
been struggling with this for a long time. They don't have some 
of the restrictions we do, they try a variety of things, and 
the jury is still out whether it really works.
    It is very hard to say that once somebody is fully 
radicalized, mobilized to violence, committed that act, that 
you are going to have much success off-ramping them, if you 
will. So the recidivism problem is one that we are really 
concerned about.
    I don't think that means we are without hope, and I am sure 
AD Sanborn has some interesting experience on this, too. But I 
do think we need more research, and we need to study.
    So one of the things that we are doing with the grant funds 
that you all have provided us is we are ensuring that there is 
room for innovation, for NGO's, nonprofits, things that maybe 
Government is not best equipped to do, to try new things, try 
something new in this space, since we are all still kind-of 
learning what works and what doesn't.
    We are also bringing our Science and Technology Directorate 
alongside those grantees to study the effectiveness, the 
outcome. I am OK if we give money to a grantee, they try 
something, and it fails. I just want to know that it failed, so 
we don't re-fund it or other people don't try to pass on that 
practice.
    So I think we need more research in that space. I think we 
need to invite more of the technology sector and academia to 
the table. Things that we thought were working, for example, in 
countermessaging, we are now seeing some evidence that maybe it 
doesn't work as well as we thought a couple of years ago.
    So data here is really important to make sure that as we 
are trying new things, that we genuinely understand if it is 
having that long-term impact.
    I feel much more confident in what the science is telling 
us or the research is telling us on that far left of boom, 
being able to intervene before somebody really has idealized 
and come up with a plan.
    Once somebody has carried out an attack, that space--and 
DOJ does a lot of studies in this space, more so than DHS--but 
that space we know is a tougher--to crack.
    It is in our strategy. It is one, as we are building our 
implementation plan, I see us taking on in probably another 
fiscal year or two because we want to build the local 
prevention framework capability first, so that as somebody is 
coming out of prison they might be able to leverage that 
capability more effectively, and recognizing DOJ also has 
strong responsibilities in this space.
    Ms. Slotkin. Thank you. I think my time has expired.
    Mr. Rose. We will do another round of questions after this.
    Ms. Sanborn, I want to lean in on this arrest that was made 
earlier today. Based off your understanding, specifically 
looking at R.A.M., Atomwaffen, and The Base, 3 leading domestic 
neo-Nazi organizations, what are their global connections? Who 
are they going to work with, communicating with, exchanging 
money with? Paint the picture of this global movement, please.
    Ms. Sanborn. I can't get into the specifics on this 
specific case because the investigation is obviously on-going, 
but I will tell you that that is one of the things that we are 
doing all the time. For example, you probably saw the attacks 
in Germany this week. So we are trying to take those attacks 
overseas, or disruptions here, and build out global networks, 
working with our foreign partners.
    Mr. Rose. OK. So you look at Atomwaffen, for instance. 
Sonnenkrieg in Britain is technically an offshoot of 
Atomwaffen. Sonnenkrieg, just several weeks ago, was labeled a 
terrorist organization by the United Kingdom, so this is 
something that is clear. It is almost obvious at this point.
    If Atomwaffen were ISIS or al-Qaeda and those 4 individuals 
had sent these menacing messages, anti-Semitic in nature and 
otherwise, what would you be charging them with?
    Ms. Sanborn. Not speaking for the United States Attorney, 
but if they were supporting a foreign terrorist organization, 
and they were designated, we would have the potential for the 
2339, the foreign--material support to a foreign----
    Mr. Rose. Providing them material support. What additional 
powers would you have in terms of surveillance and generally in 
terms of your law enforcement capabilities, again if Atomwaffen 
were ISIS or al-Qaeda and they had chapters here in America?
    Ms. Sanborn. That is a complicated, I think, two-part 
process, right? So the charge is separate from our authorities, 
and what we would need to predicate a case.
    So while the charge is definitely a great tool in the 
toolbox to add charges on, we, according to our policies and 
procedures, to predicate a case in the domestic terrorism space 
you would still need those things that we have right now, which 
is somebody who is looking to commit a criminal act, conduct 
violence in furtherance of their ideology to coerce.
    So it wouldn't help us predicate a case just because we had 
a statute.
    Mr. Rose. Sure. But again, with that providing material 
support, based off your experience, looking at the charges that 
these 4 Atomwaffen members will likely face, versus providing 
material support, in terms of the severity, how different are 
they, in terms of the average amount of time that they will 
spend behind prison, behind bars, so on and so forth?
    Ms. Sanborn. Material support exposure is definitely 
greater than what these 3----
    Mr. Rose. How--and I understand you are speaking in 
generalities--but how much greater?
    Ms. Sanborn. I don't remember specifically what the 
exposure is on 2339, but I, in the press conference with the 
United States Attorney and the SAC out in Seattle, these guys 
are looking at about 5 years.
    Mr. Rose. Atomwaffen?
    Ms. Sanborn. The ones we disrupted today, correct.
    Mr. Rose. They are looking at about 5 years. Now, if they 
were ISIS, al-Qaeda providing material support to a foreign 
terrorist organization, correct me if I am wrong, they are 
looking at closer to life?
    Ms. Sanborn. Correct. You would have an extra charge.
    I will say that one of the things that they are doing in 
this case, and you will find this in many cases, is they start 
off with a one charge, and then as the case progresses they 
will add further charges on. So I would not be surprised if in 
the coming days you don't see the Western District of 
Washington add charges on to these individuals, so their 
exposure could get----
    Mr. Rose. Sure. But the charge that is not available to 
them right now is exactly the one you just laid out, providing 
material support to a foreign terrorist organization, because 
our State Department has been unwilling to label global neo-
Nazi organizations as foreign terrorist organizations, despite 
the fact that countries like Canada and the United Kingdom have 
already done so, despite the fact that if you look at the 
conflict in Crimea, 20,000 foreign fighters have gone to 
already fight in that conflict in just the last 5 years, double 
the number that went to go fight in Afghanistan during the 
entirety of that conflict in the 1980's.
    Ms. Neumann, you mentioned tracking foreign fighters, both 
foreign fighters coming into America, as well as American 
citizens or legal residents going to fight and then coming 
back. Are you telling us here that you have enough powers, that 
the Federal Government has enough power right now and authority 
to identify every legal resident, American citizen, as well as 
person attempting to come into America who has participated in 
the conflict in Crimea or been a part of a global neo-Nazi 
organization?
    Ms. Neumann. What I can say is that we are working on it. 
But, no, I don't have confidence that we would be able to track 
everyone.
    Mr. Rose. Do you have confidence that we are able to track 
those participating with jihadist organizations?
    Ms. Neumann. I have better confidence, yes.
    Mr. Rose. Why do you have better confidence?
    Ms. Neumann. We have been working on it longer. As 
Congresswoman Slotkin pointed out, it does take a while for us 
to figure, when we are doing something new and the authorities 
are different, what we are allowed to do, what are the 
parameters----
    Mr. Rose. Why are the authorities different?
    Ms. Neumann. When you have a designated terrorist 
organization, like ISIS, we are able to do certain things with 
our screening and vetting tools that in a context of not having 
a designated organization we have to be careful to make sure 
that when we are tracking somebody or denying somebody 
admissibility that it adheres to the law.
    If you are a member of a foreign terrorist organization, 
period, hard stop, you don't get to come in.
    If you are not, but you are associated with a violent 
extremist group but they are not designated, we have to do more 
work to justify that inadmissibility.
    Mr. Rose. So what I am hearing from you is because, again, 
we are unwilling to label these organizations as FTOs, we do 
not--we cannot say with certainty, the same level of certainty 
that we can say for jihadist organizations, that we can track 
those coming in, as well as legal residents and American 
citizens who go and then come back. Is that correct?
    Ms. Neumann. Yes.
    Mr. Rose. OK.
    I want to look at social media. How has your partnership 
been with social media companies thus far in addressing the 
issue of counterterrorism? Well, let's actually do all three, 
because I think all three of you are affected by this.
    Ms. Sanborn. Want to go first?
    Mr. Harrell. Yes, sure. Mr. Chairman, I don't mind going 
first.
    You know, CISA works with our social media companies quite 
often. Mostly it is centered around disinformation and foreign 
influence.
    But as the Strategic Framework, I started to point out, we 
are starting to gravitate resources and ask the right questions 
of our social media companies now as it relates to really the 
connection between foreign influence and the radicalization 
that is highlighted in the DHS framework.
    I think from a resource perspective I would like to circle 
back on Congresswoman Slotkin's question from earlier.
    The resources are really driven from the demand signal from 
industry. So right now faith-based organizations, particularly 
the Jewish organizations that reside throughout this country, 
are asking these very key questions of, DHS, you have done 
these really great things over the last 15 years, they are very 
high-level, they are at 45,000 feet, we need some very specific 
things surrounding what to do when an intruder comes into our 
church, synagogue, mosque, temple. Can you get more specific?
    So what we have done over the last number of years is to 
try and drill down to what does ``run, hide, fight'' really 
mean, what are some of the basic protective measures that a 
church or synagogue should actually implement that are low cost 
or no cost that people can do today.
    So a lot of our products and services that we are pushing 
out today have a lot of that flavor. I think today we are in a 
better position to provide subject-matter expertise in the 
field where the constituents reside to make them a more secure 
campus, or in this case a more secure church, synagogue, 
mosque, or temple.
    We do this through the PSA Program. I mentioned that 
earlier in my opening statement. We have 119 PSAs, and quite 
frankly, we probably need 119 more. The demand signal again is 
just off the charts. These are GS-14s and 15s that are out in 
the field, kind-of the tip of the spear, that are able to walk 
the property, understand what that enemy avenue of approach is, 
understand what the gaps in security might be, and where to 
make those investments.
    So this is really from an investment and resource 
perspective where I think DHS and CISA are trying to gravitate 
toward now.
    Ms. Neumann. On social media, we, as I mentioned in my 
testimony, we do work with the big companies primarily through 
the Global Internet Forum to Counter Terrorism.
    Mr. Rose. Who do you work with at the Global Internet Forum 
to Counter Terrorism?
    Ms. Neumann. So the founding partners were Facebook, 
Twitter, Google, and Microsoft.
    Mr. Rose. Who is your point of contact?
    Ms. Neumann. So GIFCT as an entity is in the process of 
turning itself into a nonprofit.
    Mr. Rose. Right.
    Ms. Neumann. So as they are standing that up----
    Mr. Rose. Because we yelled at them, because it was a shell 
of an organization with no points of contact.
    Ms. Neumann. It was a rotating chair.
    Mr. Rose. They had no points of contact, they had no 
budget, they had no SOP, they had nothing.
    So my question is, is that when you work with social media 
companies to address the issue of counterterrorism, who do you 
call?
    Ms. Neumann. All right. So if it is law enforcement, that 
would be in the Bureau's lane, so I will let AD Sanborn 
describe that.
    On the nature of how do you take down terrorist content, 
voluntary approach that the U.S. Government uses, best 
practices for countermessaging, we are using the points of 
contact at the GIFCT. I personally don't know the names of 
those, but my staff----
    Mr. Rose. So you send an email to 5 people?
    Ms. Neumann. No. They are in the process of hiring an 
executive director, is my understanding.
    Mr. Rose. Yes, I know.
    Ms. Neumann. I am happy to take that as a get-back with the 
precise ``here is how often that we are talking to them.'' But 
I know that we are----
    Mr. Rose. Yes. We are very interested to know how this 
actually happens.
    Ms. Neumann. Sure.
    Mr. Rose. Because I have been hearing people brag about the 
GIFCT now for more than a year, and right now the thing does 
not exist. It is not real. All it is, is a share drive of 
hashtags. That is all it is. It doesn't exist. So we really 
want to understand how this works.
    Ms. Neumann. Sure.
    Mr. Rose. We have yet to get a real answer.
    Terrorism is terrorism. Take it all down. But this is big 
business here.
    GIFCT does not exist yet. So that is not a suitable answer 
yet as to what your operational procedures are to address 
social media companies.
    Ms. Sanborn.
    Ms. Sanborn. We spend a good chunk of our energy and 
resources in my division and across the Bureau, I have a 
Strategic Partnership Engagement Section that tries to focus on 
strategic partners in general, which include social media and 
education and capacity building, trying to really make them 
aware of what the threat is so that they can be very mindful 
when they develop and enforce their terms of use, for example. 
Also very encouraged by their response when we serve them 
lawful process.
    So both in an education and capacity-building, the better 
aware they are of the threat, the more----
    Mr. Rose. You are confident that they treat neo-Nazi 
organizations in the same manner that they treat jihadist 
terrorist organizations?
    Ms. Sanborn. I am encouraged by their interest to learn 
that from us.
    Mr. Rose. OK. All right. For our next round, we will move 
back to the Ranking Member.
    Mr. Walker. Thank you, Mr. Chairman.
    Secretary Neumann, the Homeland Security Advisory Council 
Subcommittee on Faith-Based Security released a report in mid-
December with a number of recommendations. One that stood out 
to me was that there is an information gap between faith-based 
groups and State and locally-owned fusion centers.
    The reason why, I was a pastor for 16 years, during the 
time that we began to build our own security teams, trying to 
even go as far as process information to see if there were any 
potential threats out there.
    My question is: Does DHS have any initiatives to expand 
information sharing and as well training available to fusion 
centers and DHS personnel deployed around the United States to 
fill this gap?
    Ms. Neumann. Thank you for the question, Chairman. I am 
actually going to answer part of this and pass it over to Mr. 
Harrell.
    We are in the process of finalizing our implementing 
recommendations coming out of that HSAC report. We took their 
commentary about fusion centers and connecting with churches, 
we kind-of examined that and had some conversations with the 
HSAC chairs, Mr. Goldenberg, Mr. Allen, and we are trying to 
understand the problem that they were describing.
    I think one of the challenges is that fusion centers are 
different in each State. Their original purpose was information 
sharing between and among local government and up to the 
Federal Government. They were not necessarily designed to be 
outreach mechanisms to their community.
    Now, some fusion centers have taken on that mandate, and 
that is great--New Jersey is a great example of this--where 
they physically go out and do trainings and conduct exercises 
and educate their communities about the threat. I think that is 
wonderful.
    But I don't think all fusion centers are designed that way. 
They really are about intelligence analysis and information 
sharing.
    So this leads me to, as we were assessing, there is a 
problem here--we like to call it the last-mile problem--the 
Federal Government's apparatuses are not designed to get to 
all, you know, tens of thousands of houses of worship in this 
country----
    Mr. Walker. Let me--and pause for just a second.
    Ms. Neumann. Sure.
    Mr. Walker. I appreciate the eloquent response there. But 
if there is a concern, even remotely, for a synagogue or a 
church in a specific area, does not these fusion centers of the 
Federal Government have some responsibility to bring these 
folks in to say, ``Hey, it is just small on the radar, I just 
wanted you to know,'' as opposed to putting the burden on the 
church or synagogue, the rabbi, the pastor, the clerk, whatever 
it might be, to pursue this information?
    Ms. Neumann. Yes. What I was trying to get to is that we 
haven't had to do that before. So we are trying to figure out 
the best way to do it.
    Mr. Walker. OK.
    Ms. Neumann. So I think there is a role for fusion centers. 
There is a huge role for State and local law enforcement. Our 
Protective Security Advisors are in some ways much better-
equipped than perhaps a fusion center might be to make sure 
that they are getting that information out.
    But it is tens of thousands of houses of worship that need 
to be trained and educated, that there is not enough manpower 
in a fusion center or a PSA apparatus to do that. So we are 
going to have to come up with a slightly different model than 
what we have used heretofore.
    Mr. Walker. Mr. Harrell, do you want to add something to 
that?
    Mr. Harrell. Please, and thank you, sir.
    You know, with the 80-plus fusion centers that we have in 
this country, that is one bellybutton. The additional 
bellybutton would be the information sharing and analysis 
center, or the ISACs, and these are the major channels of 
communication back and forth between the Federal Government, 
State and local partners, and then ultimately industry, 
churches, synagogues, mosques, et cetera.
    But you don't know what you don't know, and I think at some 
point there needs to be a better information-sharing campaign 
to say these resources exist, this information is being shared 
on a daily, weekly, monthly basis in terms of threats, in near-
real time.
    It is difficult, as Assistant Secretary Neumann just 
mentioned, it is difficult to get to every church. But we need 
to ensure that through this mechanism people are landing on 
distribution lists across this country to get this information 
into the hands to people that can actually do something about 
it.
    I think through the PSA program, we have tried to bridge 
some of those gaps, but it is difficult to get to some of the 
rural communities. It is difficult to get to some of the 
lesser-served populations. But that is our goal. That is what 
we are trying to do. That is what we are gravitating toward.
    Mr. Walker. Let me switch gears just for a second and stay 
with you, Mr. Harrell.
    The CISA Protective Security Advisor program has been 
getting a lot of attention recently and additional 
responsibilities related to community outreach. How many PSAs 
are there, and what are their primary responsibilities? What 
new responsibilities will they have under the new TVTP 
initiative? I will throw this in there since I have just got a 
few seconds. Touch on it what you can. Does this strain your 
resources for other missions under CISA?
    Mr. Harrell. We have 119 PSAs, Congressman, and as I 
mentioned earlier, we need a whole lot more. This is one of the 
things that we have asked for in future budgets, and I am 
confident that is where we will end up going as an 
organization.
    The demand signal ultimately comes through these PSAs. They 
are the field resources. They are the ones that eat, breathe, 
sleep, and reside in these communities. They have the 
relationships with the local community, the churches, the 
schools, the big communities that are out there, critical 
infrastructure owners and operators.
    Their whole goal really, at the end of the day, is capacity 
building and bringing relationships to bear, having the right 
people sit at the table to understand what the risk is, how to 
drive down risk, and ultimately what resources does the Federal 
Government have that we could put into the community today to 
drive down risk and make people a harder target.
    Many of these resources are low-cost, no-cost. I would say 
the majority of them are absolutely free. But, again, people 
don't know what they don't know, and so it is our opportunity, 
it is our challenge to get this information out.
    I can point to a website all day, but at the end of the day 
we need to help people along to get them the right information.
    Mr. Walker. It is your challenge, your opportunity, and I 
would even add, hopefully, responsibility as well.
    Mr. Harrell. Thanks.
    Mr. Rose. Thank you.
    Mr. Malinowski.
    Mr. Malinowski. Thank you.
    I want to start with a social media question, and I want 
you all to imagine the following hypothetical scenario.
    An American company reaches out to leaders of The Base or 
the Atomwaffen Division or another terrorist group and says, 
``Have we got a great service for you. We will scour the entire 
internet looking, using big data, for anybody in the world who 
might be susceptible to your message. So long as you don't post 
things that are overtly threatening violence, we are willing to 
deliver your message directly into the social media of those 
people wherever they may be to help you recruit more members 
and to spread your message more effectively.''
    Would you be concerned about that?
    Ms. Neumann. Very.
    Mr. Malinowski. Isn't that exactly what Facebook and 
Twitter and YouTube and the big social media companies, in 
fact, do via their social media algorithms?
    Now, they may not physically pick up the phone and call the 
Atomwaffen Division and say, you know, ``This is a great 
service for you.'' But isn't that effectively what the social 
media algorithms do? They scour the internet for anybody who, 
based on their previous internet usage, seems like the sort of 
person who would like to buy a pair of shoes, watch a cute 
kitten video, or perhaps be interested in anti-Semitic or neo-
Nazi content, and make that connection?
    Ms. Neumann. Yes. I am not going to sit here and defend 
companies. That is not my job. Your point, Mr. Chairman, was 
well-taken.
    That said, I do think that the briefings I have received, 
they are trying. Are they trying hard enough? I think that is 
for you all to examine.
    Mr. Malinowski. Have you ever in your engagement with them, 
though, directly addressed this issue of how their algorithms 
help to spread this kind of content?
    Ms. Neumann. Yes. I can tell you that there are any number 
of former counterterrorism professionals that work for these 
companies that are actively trying to figure out how to stop 
this.
    If they are moving fast enough, if there is enough money 
toward that, that is a separate question. I have not examined 
that. But I do know that the people that I have met with that 
brief me on their innovative tools to try to promote civil 
discourse, to try to appropriately remove content that violates 
their terms of service, that tries to identify that content, 
which is spreading hate, they are looking for ways to do that 
within the context of their----
    Mr. Malinowski. So clearly, if they see something bad they 
take it down, but the engine that causes that stuff to spread 
is something I think they are more reluctant to acknowledge and 
address.
    Different question for you, Ms. Sanborn. We were talking 
about various legal authorities. We had a case in New Jersey 
recently, a man in Camden County, New Jersey, who had a long 
history of posting anti-Semitic rants on the internet, 
including celebrating acts of violence against Jews.
    Allegedly, he was in personal contact with the shooter in 
the Tree of Life Synagogue. Because we have in New Jersey 
recently passed a so-called red flag law, law enforcement in 
New Jersey was able to confiscate this individual's firearms, 
of which he had quite a few.
    In your experience as a law enforcement officer, do you 
think this is an authority that is useful in these 
circumstances, where somebody has not yet committed an act of 
violence but there is this body of evidence that they may be 
celebrating, contemplating engaging with people who have 
committed such acts? Is that a useful tool for law enforcement 
to have in your view?
    Ms. Sanborn. I think what would concern me about sort-of 
thinking that solves the problem is, in my experience as a law 
enforcement officer, if an individual is intent on doing some 
harm, they are going to find a weapon. Unfortunately, all of 
our terrorism, international and domestic, is encouraging 
individuals to make a weapon.
    I mean, the threat we have seen in Europe of vehicular 
attacks is equally as scary as the threat that we can imagine 
when you talk about firearms. They are telling them, go get a 
knife, go get a vehicle. So I am not sure that that 
necessarily--it could falsely give us the sense of security----
    Mr. Malinowski. But can it help? I am not suggesting it 
solves the problem.
    Ms. Sanborn. Any time a bad guy doesn't have a weapon in 
their hands it is a positive sign.
    Mr. Malinowski. Good. Thank you.
    I yield back.
    Mr. Rose. So I want to close out just by again looking at 
this issue of social media.
    Ms. Sanborn, would you agree that one of the most 
significant threats we face today when it comes to terrorism is 
that of a self-radicalized lone gunman, lone gunwoman, or lone 
perpetrator, who hasn't traveled to a terrorist camp, hasn't 
necessarily even moved overseas?
    Ms. Sanborn. Correct, the lone offender is our greatest 
threat.
    Mr. Rose. They are often radicalized on-line, correct?
    Ms. Sanborn. Correct.
    Mr. Rose. So we have that--we all agree that that is a 
threat.
    Now, Ms. Neumann, you just said something that I found 
interesting. We don't yet know, correct, whether social media 
companies are fulfilling their responsibilities to adhere fully 
to their own codes of conduct. Right now it doesn't seem like 
we have a metric or a system in place to say they have done it 
90 percent of the time or 95 percent of the time. Is that 
correct?
    Ms. Neumann. I think so. I will also take that as a get-
back to confirm that we don't have metrics in place. I have 
been in conversations where they have been discussing how to 
measure. They measure right now in terms of the amount of 
content taken down.
    Mr. Rose. Sure.
    Ms. Neumann. How quickly they intervene in content before 
it even uploads. But I think you are getting into a slightly 
different type of metric, and I would like to look at that.
    Mr. Rose. Yes. What I am trying to get at is that we don't 
have--the public sector right now, we have no system in place 
to measure how well they are doing something which we all 
collectively agree is one of, if not our greatest or most 
likely, terrorist threats. We are in essence relying on them to 
take--we have to take them at their word.
    Now, we don't do that for airbag deployability. We don't do 
that for all of these other public health, public safety 
concerns that we as society have agreed upon. Do you agree with 
that?
    Ms. Neumann. Yes.
    Mr. Rose. So what I would urge you all, and we are going to 
have continued discussions about this, we are proposing 
something called Raise the Bar Act, which would be an 
innovative public-private partnership between DHS and the 
social media companies, particularly those engaged in GIFCT 
when they stand it up and make it a real organization, to on a 
quarterly basis issue a report, engage in a partnership with a 
university and trusted flaggers, to see how well they do at 
taking terrorist content off of their platforms.
    But the last point here is we have to get them to agree 
that Atomwaffen and The Base and Sonnenkrieg and Blood & Honour 
and National Action and so many others are actually terrorists. 
In order to do that we need you all to call them that. We need 
the State Department to label at least some of them FTOs.
    So I will leave it to you, if you all have any reaction to 
what I just said, and then we can close it out.
    We will start with you, Ms. Sanborn.
    Ms. Sanborn. I think we would welcome the participation 
about the conversation with the State Department. We would be 
happy to feed our intelligence into them and allow them to 
evaluate what we have to see if it helps them make a decision.
    Mr. Rose. Thank you.
    Ms. Neumann. I have really struggled with this, several of 
the questions you have been raising, Mr. Chairman, especially 
since we talked a couple weeks ago. I have, in truth, been 
struggling with this for the 2 years that I have been in my 
position.
    I think that what you are raising deserves robust debate, 
and I think it deserves probably more due diligence than 
somebody in my role with multiple responsibilities in, quite 
frankly, one hearing can do.
    I think there are two particular issues you have drawn out. 
The first is the way in which on-line platforms catalyze hate. 
I think Mr. Goldenberg, in his past panel with you, gave you a 
great example of situations that are just absolutely abhorrent 
of a rabbi whose children were targeted on-line. I am very 
encouraged by AD Sanborn to see that they are looking to try to 
use all the tools that they currently have to try to go after 
such horrible, horrible things.
    But the fact is that our law enforcement community feels 
hamstrung in how do you go after and balance First Amendment 
rights to free speech, while at the same time how do you not 
acknowledge that innocent children being projected with images 
on-line that will forever be on-line, what about their rights? 
So there is that tension there.
    Then we also know that we have these organizations or 
movements or individuals, that some of them are very 
sophisticated. They know exactly how far they can go. They are 
training their people to say you can go this far but not any 
farther. They are being sophisticated in both their 
communications and in their messaging.
    So they are playing a game, and we are not equipped to go 
after that game effectively because of the rules that we are 
using that were, quite frankly, designed 50 years ago.
    So I think it is probably time to take a fresh look. We do 
regulate other parts of speech over airwaves. It is hard for me 
to understand why on the on-line side we are not willing to 
look at that.
    Then the second thing you raised, about some domestic 
terrorist groups and movements being designated, I think it is 
definitely worth looking at whether we need a new DTO 
designation or movement designation or maybe just relook at the 
whole, entire framework.
    The National security apparatus is designed for a threat 
from 20, 30 years ago, and the world is changing. Every 
counterterrorism professional I speak to in the Federal 
Government and overseas feels like we are at the doorstep of 
another 9/11, maybe not something that catastrophic in terms of 
the visual or the numbers, but that we can see it building and 
we don't quite know how to stop it.
    So this feels like one of those moments where having smart 
people, academics, lawyers, people that can appreciate that we, 
as a country, have abused authority in the past, McCarthyism, 
internment of Japanese during World War II, we don't have a 
great track record here. We need to do this wisely. It probably 
is not in our normal course of business. It feels like this is 
a time for some sort of bipartisan commission to go off and 
study this problem and come back with a holistic view of this.
    So I applaud your championing. Happy to work with you on 
your legislation, because I will take whatever we can get to go 
after this problem. But I also think we need a bigger 
conversation on this.
    Mr. Harrell. Mr. Chairman, thank you again for having us.
    You know, based off of current events and the frequency of 
events, I am convinced that this country is becoming more and 
more violent every single day.
    I am unique up here in that I sit in a position where we 
are focused within CISA on preparedness and protection. I live 
my life as if the worst day is right around the corner. I think 
I mentioned this to you in the past.
    So we need to ensure that we have the resources in our 
fingertips. They can't reside in our fingertips. They have to 
go out into the field where they can be used to reduce risk and 
ultimately save lives.
    So in terms of marshalling resources, budgets, the things 
that we have within the Department, we need to ensure that they 
are well-known, there is an education campaign that DHS has 
these things, and I think we are moving in this direction now.
    Mr. Rose. Thank you all so much again, and thank you for 
all your service to this country. I know you live with an 
incredible amount of stress and pressure, and people are often 
only focusing on you when something doesn't go well. So thank 
you for everything that you are doing for this great country.
    I would also ask unanimous consent for a statement from the 
Jewish Federations of North America to be entered into the 
record. Without objection, so ordered.
    [The information follows:]
             Letter From the Jewish Federations of America
                                 February 26, 2020.
The Honorable Max Rose,
Chairman, Intelligence and Counterterrorism Subcommittee, Homeland 
        Security Committee, U.S. House of Representatives, Washington, 
        DC 20515.
The Honorable Mark Walker,
Ranking Member, Intelligence and Counterterrorism Subcommittee, 
        Homeland Security Committee, U.S. House of Representatives, 
        Washington, DC 20515.
    Dear Chairman Rose and Ranking Member Walker: The Jewish 
Federations of North America (JFNA) applauds your continued focus on 
confronting the rise of anti-Semitic domestic terrorism. The 
existential threats to the Jewish community have been growing and 
becoming more complex over the past two decades and Federal resources 
to counter these threats are in increasing demand.
    Three months after the horrific September 11 attacks on our 
country, the Senate Governmental Affairs Committee held a hearing on 
confronting international terrorism. At that the hearing, JFNA (then 
United Jewish Communities) submitted the lone statement expressing the 
needs and concerns of the nonprofit sector, as follows in pertinent 
part:

``The events of September 11th have also affected our institutions in a 
profound and unanticipated way. Our Federations, day schools and 
seminaries, synagogues, community centers, seniors programs, and 
agencies serving the public became aware that our own institutions and 
the people they serve could be the targets of future terrorist attacks. 
There is no secret that both the rhetoric of those responsible for 
September's attacks and past experiences support this view.

``While State and local law enforcement and other emergency response 
agencies play a necessary and indispensable role in protecting our 
communities, it is not their responsibility to secure our daily 
operations or infrastructure.

``Creating and employing a mitigation plan; maintaining and 
coordinating full-time security staff; installing bulletproof glass, 
gates and fencing, outdoor cameras, reinforced doors and locks, 
intercoms and panic buttons; redesigning the ingress and egress of 
facilities and retraining staff are examples of the types of enhanced 
human and hardware assets our communities will require to meet their 
security needs.

``[S]ecurity enhancements across the Jewish Federated system will cost 
hundreds of millions of dollars. Our greatest concern is that without 
some modest government assistance, our costs for providing security 
will come at the expense of program dollars and upon our ability to 
provide for the health and social wellbeing of the millions of people 
living in the hundreds of communities we serve.''

    This statement was the precursor to JFNA's efforts with Congress to 
establish the Federal Emergency Management Agency's (FEMA) Nonprofit 
Security Grant Program (NSGP) in 2004. The concerns we relayed then are 
equally germane today, and the escalating threats against Jewish and 
other faith-based and nonprofit communal organizations posed by 
Domestic Violent Extremists (DVEs) and Racially/Ethnically Motivated 
Violent Extremists (RMVEs), further crystalize the importance of the 
NSGP as the central Federal program to counter these threats.
    Last month, the Federal Bureau of Investigation (FBI), Department 
of Homeland Security (DHS) and National Counterterrorism Center (NCTC) 
issued a joint intelligence bulletin, which assessed the threat from 
DVEs and RMVEs as follows:

``They will continue to pose a lethal threat to faith-based 
communities, particularly the Jewish community, in the homeland and 
remain concerned about the difficulty of detecting lone offenders due 
to the individualized nature of the radicalization process. At least 
four incidents since October 2018 against Jewish communities underscore 
the increasingly lethal threat RMVEs and perpetrators of hate crimes 
pose to faith-based communities in the United States, particularly 
against soft targets such as religious and cultural facilities. In 
addition to violent attacks and plots, the FBI and law enforcement 
partners have investigated and arrested individuals who have vandalized 
or committed arson on property associated with Jewish institutions. In 
addition to the previous attacks, the FBI has arrested several 
individuals at various stages of plotting future attacks on Jewish 
communities. These events underscore the persistent threat of lethal 
violence and hate crimes against the Jewish community in the United 
States.''\1\
---------------------------------------------------------------------------
    \1\ JIB: Continued Interest in Targeting Jewish Communities in the 
Homeland by Domestic Violent Extremists, 3 January 2020 (IA-41058-20).

    This assessment was based on multiple lethal incidents, violent 
attacks, and disrupted plots, including the mass casualty attacks 
against Jewish institutions in Pittsburgh (October 2018), Poway (April 
2019), Jersey City (December 2019), and Monsey (December 2019).
    The FBI, DHS and NCTC issued a second bulletin last month that 
underscored that international terrorists also continue to pose a 
threat to the Jewish community, as follows:

``If the Government of Iran were to perceive actions of the U.S. 
Government as acts of war or existential threats to the Iranian regime, 
Iran could act directly or enlist the cooperation of proxies and 
partners, such as Lebanese Hizballah. Based on previously observed 
covert surveillance and possible pre-operational activity, Iran or its 
violent extremist supporters could commit attacks in retribution, with 
little to no warning, against U.S.-based Jewish individuals and 
interests among likely targets.''\2\
---------------------------------------------------------------------------
    \2\ JIB: Escalating Tensions Between the United States and Iran 
Pose Potential Threats to the Homeland, 8 January 2020 (IA-41117-20).

    According to this assessment, in recent years, agents of Iran or 
Lebanese Hizballah have been prosecuted for conducting surveillance 
indicative of contingency planning for lethal attacks in the United 
States. This included the convictions of a dual U.S.-Iranian citizen 
and a U.S.-based Iranian citizen convicted in November and October 
2019, respectively, for working on behalf of Iran to collect 
information on and identify multiple Jewish institutions, including a 
Hillel Center and the Rohr Chabad Center in Chicago.
    Encapsulating these concerns, FBI Director Christopher Wray 
testified before the House Judiciary Committee on February 5, 2020, 
that threats from ISIS, Al Qaeda, Iran and its proxy Hizballah are of 
top concern and that violent extremists motivated by race were now 
considered a ``national threat priority'' equivalent to foreign 
terrorist organizations. Director Wray also testified before the Senate 
Homeland Security and Government Affairs Committee on November 5, 2019, 
that the underlying drivers for domestic violent extremism, including 
racism, anti-Semitism, Islamophobia, remain constant. What we know is 
that both domestic and international terrorists are targeting the 
faith-based and communal organizations and that a common thread between 
them is anti-Semitism and violence directed at the Jewish community, in 
particular.
    Every week, there are multiple incidents reported. This week, more 
than 50 Jewish community centers in 23 States received emailed bomb 
threats. In this environment of perpetual threats, demand for NSGP 
resources is growing. As you know, the program supports the acquisition 
and installation of physical target hardening measures (i.e., access 
controls, barriers, blast-proofing, monitoring and surveillance 
capability, and cybersecurity enhancements), activities to advance 
preparedness and prevention planning, training, exercises, and 
contracted security personnel, and collaboration and engagement with 
Federal, State and local law enforcement agencies.
    Since its inception, the program has maintained bi-partisan support 
in both the House and Senate and is thought of as an efficient and 
effective means to accomplish a great deal of security enhancement and 
preparedness through modest resources. As such, we are tremendously 
pleased that Representatives Bill Pascrell, Jr. (D-NJ) and Peter King 
(R-NY) are spearheading a House funding request letter this week to 
increase the fiscal year 2021 appropriations for NSGP to $360 million. 
This request, if funded, will significantly close the gap in unmet 
need. Between fiscal year 2005 and fiscal year 2019, there were more 
than 11 thousand NSGP funding requests, nationally, seeking 
approximately $900 million in security investments, but less than 4 
thousand awards were funded in support of just over $300 million in 
security investments.
    In this environment, we are grateful for the bipartisan leadership 
of the House Homeland Security Committee, and the subcommittees on 
Emergency Preparedness, Response and Recovery, and Intelligence and 
Counterterrorism, for holding hearings and advancing legislation to 
counter the complex threats against the Jewish community and other 
faith-based and communal organizations. In continuing to elevate these 
concerns and prioritizing limited resources to counter these threats, 
we urge you to maintain strong support for FEMA's Nonprofit Security 
Grant Program.
            Sincerely,
                                        Robert B. Goldberg,
                              Senior Director, Legislative Affairs.

    Mr. Rose. Thank you for their extraordinary, extraordinary 
contribution.
    With that, I thank the witnesses for their valuable 
testimony and the Members for their questions.
    The Members of the committee may have additional questions 
for the witnesses, and we ask that you respond expeditiously in 
writing to those questions.
    Pursuant to committee rule VII(D), the hearing record will 
be held open for 10 days.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 4:15 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

           Questions From Chairman Max Rose for Jill Sanborn
    Question 1. In your testimony, you stated, ``FBI interactions with 
social media companies center on education and capacity building, in 
line with our goal to assist companies in developing or enhancing their 
terms of service to address violent extremist exploitation of their 
platforms.'' Specifically, how does the FBI help ``in developing or 
enhancing their terms of service to address violent extremist 
exploitation of their platforms''? What criteria does the FBI use to 
determine these best practices?
    Answer. Response was not received at the time of publication.
    Question 2. In general terms, please describe the collaboration and 
coordination of DHS and FBI with the National Counterterrorism Center 
(NCTC) with regard to domestic terrorism issues.
    Answer. Response was not received at the time of publication.
    Question 3. To what extent do DHS and FBI place emphasis on open-
source intelligence when dealing with domestic terrorism? How can 
focusing on these unclassified sources help to improve information 
sharing with State and local law enforcement partners?
    Answer. Response was not received at the time of publication.
       Question From Chairman Bennie G. Thompson for Jill Sanborn
    Question. We recently heard from DHS in a briefing about the 
challenges they face in distributing information to law enforcement 
partners in rural communities. Please describe how the FBI is 
approaching this challenge, alone and in coordination with other 
Federal entities.
    Answer. Response was not received at the time of publication.
        Questions From Honorable Elissa Slotkin for Jill Sanborn
    Question 1. The number of domestic terrorist attacks in the United 
States has been trending upward for several years now. In my 
experience, the best way to tell whether or not Government agencies are 
adapting to a changing environment is to look at the specifics of 
resource allocation, and especially dollars and people. With that 
context in mind, please provide annual figures for 2016-present, and 
estimated for fiscal year 2021 based on the President's budget request 
for the following items:
  <bullet> The number of employees dedicated to the problem of domestic 
        terrorism and white supremacist extremism compared to 
        international terrorism.
  <bullet> The number of analysts dedicated to identifying and 
        monitoring the on-line activities of domestic terrorists and 
        white supremacist extremists compared to international 
        terrorists.
  <bullet> The budget as proposed, appropriated, and expended for the 
        Domestic Terrorism-Hate Crimes Fusion Cell and other FBI 
        programs designed to identify and combat domestic terrorism and 
        white supremacist extremism compared to programs designed to 
        identify and combat international terrorism.
  <bullet> How much agent and staff time the FBI spent on domestic 
        terrorism and white supremacist extremism across both the 
        Counterterrorism and Criminal Investigative Divisions compared 
        to foreign terrorism.
    Answer. Response was not received at the time of publication.
    Question 2. The FBI has previously identified community 
relationships as the most important factor in preventing domestic 
terrorism.
  <bullet> Please provide annual figures for 2016-present for the 
        number of communities the FBI has contacted regarding domestic 
        terrorism and white supremacist extremism.
  <bullet> Please provide annual figures for 2016-present for the 
        number of communities that have reached out to the FBI 
        regarding domestic terrorism and white supremacist extremism.
    Answer. Response was not received at the time of publication.
       Questions From Ranking Member Mark Walker for Jill Sanborn
    Question 1. Understanding that case data is fluid, please clarify 
the current breakdown of resources within the Counterterrorism Division 
focused on international terrorism and domestic terrorism to include 
the total number of cases in each category and a breakdown within each 
category to the extent possible.
    Answer. Response was not received at the time of publication.
    Question 2. There is an urgent need for reliable, public data from 
the FBI and DOJ on hate crimes and terrorism arrests so that we can 
better understand the threats across the U.S. homeland. What is the 
status of FBI efforts to improve reporting to the Uniform Crime 
Reporting (UCR) Program related to hate crime data collection? What 
other efforts are under way to improve and encourage participating law 
enforcement agency's public reporting of domestic and international 
terrorism arrests and prosecutions?
    Answer. Response was not received at the time of publication.
    Question 3. Outside advocacy groups and experts have stressed the 
need for more training for law enforcement and prosecutors at all 
levels regarding the successful investigation and subsequent 
prosecution of those who commit anti-Semitic and other domestic 
extremist attacks. What efforts are under way within the FBI to ensure 
that those on the front lines are provided with comprehensive training 
to identify and investigate these crimes?
    Answer. Response was not received at the time of publication.
         Questions From Chairman Max Rose for Elizabeth Neumann
    Question 1. In general terms, please describe the collaboration and 
coordination of DHS and FBI with the National Counterterrorism Center 
(NCTC) with regard to domestic terrorism issues.
    Answer. Response is For Official Use Only.
    Question 2. To what extent do DHS and FBI place emphasis on open-
source intelligence when dealing with domestic terrorism? How can 
focusing on these unclassified sources help to improve information 
sharing with State and local law enforcement partners?
    Answer. Response is For Official Use Only.
    Question 3. What lessons has DHS gleaned from tracking ISIS-related 
foreign fighters that it can apply to the international travel of 
foreign citizen white supremacist extremists?
    Answer. Response is For Official Use Only.
    Question 4. Is DHS's international engagement and component 
international footprint appropriately calibrated and resourced to react 
to the changing nature of the threat posed by transnational white 
supremacist groups?
    Answer. Response is For Official Use Only.
    Question From Chairman Bennie G. Thompson for Elizabeth Neumann
    Question. What criteria will OTVTP use to determine which entities 
will receive grant funding from the newly set-aside $10 million for 
targeted violence and terrorism prevention?
    What efforts are being made to include more non-governmental 
organizations and academic entities, as compared to the Countering 
Violent Extremism (CVE) grants awarded in fiscal year 2016?
    Answer. The Targeted Violence and Terrorism Prevention (TVTP) grant 
program Notice of Funding Opportunity (NOFO) was posted on March 30 and 
can be found at https://www.grants.gov/web/grants/view-
opportunity.html?oppId=325876. We were pleased members of your 
committee staff were able to join us for a teleconference briefing on 
the NOFO. Relevant to the topic of this hearing, we want to note that 1 
of the 3 priorities for this year's grant are projects which address 
domestic terrorism.
    Speaking generally, the solicitation sets up a process to fund 
applicants with strong program design based on a rigorous analysis of 
local resources and plans for permanently sustaining capabilities. 
Specifically, U.S. Department of Homeland Security (DHS) seeks to use 
the grants to fill significant prevention gaps at the local level. Such 
efforts can take multiple forms. An applicant might establish a 
comprehensive approach to prevention. Applicants could also use the 
funds to stand up specific prevention programs to close a gap that 
hinders prevention of terrorism and targeted violence. Or applicants 
can seek to prevent forms of terrorism and targeted violence, such as 
the Racially and Ethnically Motivated Violent Extremism (REMVEs) we 
discussed in the hearing.
    Questions From Ranking Member Mark Walker for Elizabeth Neumann
    Question 1. DHS has a significant number of employees deployed 
across the United States, including Protective Security Advisors, 
intelligence analysists at fusion centers, and brand new TVTP 
employees. How will all of these individuals be coordinated when it 
comes to TVTP outreach and training?
    Answer. PLCY is working in coordination with the TVTP Executive 
Steering Committee (ESC) to develop a DHS Prevention Field Concept of 
Operations (CONOPS) for supporting locally-based prevention frameworks. 
PLCY leads the ESC to coordinate the efforts of 21 DHS offices and 
components that have a role in the implementation of Goal 3 of the 
Strategic Framework for Countering Terrorism and Targeted Violence. The 
CONOPS will:
  <bullet> Finalize roles and responsibilities of the OTVTP Regional 
        Prevention Coordinators vis-a-vis other DHS field personnel 
        (e.g., Cybersecurity and Infrastructure Security Agency (CISA) 
        Protective Service Advisors) in carrying out prevention 
        activities with State, local, Tribal, and territorial (SLTT) 
        partners.
  <bullet> Coordinate with other Federal partners with field presence 
        that DHS can leverage to assist in prevention; and
  <bullet> Ensure mechanisms are in place to harmonize and deconflict 
        the delivery of trainings, briefings, and information being 
        shared with local stakeholders.
    The TVTP ESC members will encourage appropriate field personnel to 
meet with Regional Prevention Coordinators to discuss implementation of 
the CONOPS.
    Question 2. DHS is reinvigorating the community grant program for 
countering violent extremism as the Targeted Violence and Terrorism 
Prevention grant program. How will this program be different and when 
do you expect to release the Notice of Proposed Funding Opportunity? 
Given that programs focused on prevention are relatively new, how will 
DHS build in evaluation metrics into the proposals?
    Answer. DHS released the NOFO on March 30, 2020. The NOFO outlines 
the new program elements, which are in part an evolution and in part a 
new direction for grants supporting targeted violence and terrorism 
prevention at the local level. The program is an evolution from the 
fiscal year 2016 Countering Violent Extremism Grant Program in that it 
makes modifications and improvements based on the promising practices 
and lessons learned that OTVTP documented in its quarterly and other 
reports (see https://www.dhs.gov/cvegrants for these reports). The 
grant program is a new direction in that it expands covered activities 
to include projects that mitigate the threat of targeted violence, 
therefore aligning the grant program to the objectives in Goal 3 of the 
Strategic Framework for Countering Terrorism and Targeted Violence.
    The TVTP Grant Program is designed around a dozen project types, 
each of which has required performance metrics that grantees will 
collect and report as a term of their award. In designing these 
required metrics, OTVTP drew upon lessons learned from the fiscal year 
2016 grant program and engaged experts in the field of evaluation 
science, an example of which is found in the RAND Program Evaluation 
Toolkit for Countering Violent Extremism (see https://www.rand.org/
pubs/tools/TL243.html). Currently, OTVTP is working with the DHS Office 
of Science and Technology and Office of Management and Budget (OMB) to 
produce a robust evaluation plan that will include independent 
evaluations of a cross-section of the grantees. These steps ensure that 
the fiscal year 2020 grant program will be able to provide evidence-
based answers to questions that the fiscal year 2016 program received 
(and continues to receive) from OMB, Government Accountability Office, 
U.S. Congress, the media, and SLTT partners about what works in 
prevention.

                                 <all>
</pre></body></html>
